<html>
<title> - COURAGE UNDER FIRE: EXAMINING GOVERNMENT PREPAREDNESS AND RESPONSE TO WILDFIRES IN CALIFORNIA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
                          COURAGE UNDER FIRE:

                   EXAMINING GOVERNMENT PREPAREDNESS

                      AND RESPONSE TO WILDFIRES IN

                               CALIFORNIA

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON ENVIRONMENT

                                 of the

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 20, 2019

                               __________

                           Serial No. 116-56

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 


            Available on: http://www.govinfo.gov
               http://www.oversight.house.gov or
                  http://www.docs.house.gov                        
                        
                        
                           ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 37-951 PDF        WASHINGTON : 2019
                      
                        
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Paul A. Gosar, Arizona
Wm. Lacy Clay, Missouri              Virginia Foxx, North Carolina
Stephen F. Lynch, Massachusetts      Thomas Massie, Kentucky
Jim Cooper, Tennessee                Mark Meadows, North Carolina
Gerald E. Connolly, Virginia         Jody B. Hice, Georgia
Raja Krishnamoorthi, Illinois        Glenn Grothman, Wisconsin
Jamie Raskin, Maryland               James Comer, Kentucky
Harley Rouda, California             Michael Cloud, Texas
Katie Hill, California               Bob Gibbs, Ohio
Debbie Wasserman Schultz, Florida    Ralph Norman, South Carolina
John P. Sarbanes, Maryland           Clay Higgins, Louisiana
Peter Welch, Vermont                 Chip Roy, Texas
Jackie Speier, California            Carol D. Miller, West Virginia
Robin L. Kelly, Illinois             Mark E. Green, Tennessee
Mark DeSaulnier, California          Kelly Armstrong, North Dakota
Brenda L. Lawrence, Michigan         W. Gregory Steube, Florida
Stacey E. Plaskett, Virgin Islands   Fred Keller, Pennsylvania
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
             Britteny Jenkins, Subcommittee Staff Director
            Elisa LaNier, Chief Clerk/Director of Operations

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051

                                 ------                                

                      Subcommittee on Environment

                   Harley Rouda, California, Chairman
Katie Hill, California               James Comer, Kentucky, Ranking 
Rashida Tlaib, Michigan                  Minority Member
Raja Krishnamoorthi, Illinois        Paul Gosar, Arizona
Jackie Speier, California            Bob Gibbs, Ohio
Jimmy Gomez, California              Clay Higgins, Louisiana
Alexandria Ocasio-Cortez, New York   Kelly Armstrong, North Dakota


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on August 20, 2019..................................     1

                               Witnesses

Mr. Robert Fenton, Region IX Administrator, Federal Emergency 
  Management Agency
    Oral Statement...............................................     6
Mr. Randy Moore, Regional Forester, Pacific Southwest Region, 
  U.S. Department of Agriculture Forest Service
    Oral Statement...............................................     8
Mr. Mark Ghilarducci, Director, California Governor's Office of 
  Emergency Services
    Oral Statement...............................................     9
Mr. Dan Johnson, Southern Region Chief, California Department of 
  Forestry & Fire Protection
    Oral Statement...............................................    12
Mr. Max Moritz, Cooperative Extension Wildfire Specialist, Bren 
  School of Environmental Science & Mangement
    Oral Statement...............................................    29
Dr. Afif El-Hasan, Pediatrician, California
    Oral Statement...............................................    31
Mr. Brent Berkompas, Director of Governmental Affairs, Orange 
  County Professional Firefighters Association
    Oral Statement...............................................    33
Mr. Drew Smith, Battalion Chief, Los Angeles County Fire 
  Department
    Oral Statement...............................................    34

* The prepared statements for the above witnesses are available 
  at:  https://docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

The documents entered into the record for this hearing are listed 
  below, and are available at: https://docs.house.gov.

  *  Letters from California State Senator Stern and Assembly 
  Member Smith.



                          COURAGE UNDER FIRE:

                   EXAMINING GOVERNMENT PREPAREDNESS

                AND RESPONSE TO WILDFIRES IN CALIFORNIA





                        Tuesday, August 20, 2019

                  House of Representatives,
                       Subcommittee on Environment,
                         Committee on Oversight and Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
Council Chambers, Simi Valley City Hall, Simi Valley, CA, Hon. 
Harley Rouda (chairman of the subcommittee) presiding.
    Present: Representatives Rouda, Hill, Brownley, and Torres.
    Ms. Hill. Okay. Well as I said, thank you so much for being 
here. I am Congresswoman Katie Hill. We are in my district 
right now. I want to give a couple of thank yous really quick. 
I want to thank the Chairman Harley Rouda who is my colleague 
for agreeing to hold this hearing on such an important issue to 
our community. I want to thank the witnesses for agreeing to 
appear. I want to thank my colleague Norma Torres, 
Congresswoman Torres.
    We are also going to be joined later by Congresswoman Julia 
Brownley who is our neighbor, and I want to thank the committee 
staff, my own staff, and Simi Valley, the city of Simi Valley 
for allowing us to use this space, and Simi Valley Police 
Department for always providing us such wonderful security.
    Really quickly, I would also like to have a moment of 
silence for our fallen Officer, Officer Moye, in Riverside 
whose funeral is today. So, if you will join me in a brief 
moment of silence. Thank you. Our thoughts are with Officer 
Moye's family during this difficult time. Thank you again for 
being here. And with that, I will turn it over to the chairman.
    Mr. Rouda. Thank you. The subcommittee will come to order, 
and first I would like to thank my fellow members here, 
Congresswoman Brownley for joining us, Congresswoman Hill for 
hosting us in your district, and Congresswoman Torres for 
joining us as well, and our witnesses, and all of you here 
today on such an important topic, not just for California, but 
for our entire country. Without objection, the chair is 
authorized to declare a recess of the committee at any time. 
This subcommittee has come here today to examine the Government 
preparedness and response to the wildfires in California.
    I now recognize myself for five minutes to give an opening 
statement. This is the second hearing this Congress that the 
Environmental subcommittee has held in my home state of 
California. Again, I would like to send my special thanks to my 
colleague, Representative Katie Hill for working with my staff 
to organize this hearing here, in her home district, on what is 
arguably one of the most important issues facing California 
today, managing and responding to destructive wildfires that 
over the past two seasons have caused the death of more than 
100 people, destroyed thousands of homes, exposed millions of 
urban and rural California's to unhealthy air.
    These wildfires are an emergency and I want to assure 
everyone that we in Congress are addressing them as such. At 
times like these D.C. can seem like a far place from 
California, both physically and metaphorically. We in Congress 
know that Californians might look at us and say, you elected 
officials do not really get what we have lived through, what we 
have to suffer, but we do, and we are holding this hearing 
today in Simi Valley because we know that we need to be home to 
hear about the scope of this problem directly from the source.
    My colleague who represents this district, Representative 
Hill, was forced to flee her hometown during the Stone Fire of 
2018. She and her family experienced losses that we would not 
wish on anyone. So, I want all of you to know, we in Congress 
see you, we hear you, and we are here for you. These are our 
homes, our communities, our friends, our neighbors, and our 
beautiful State that is being destroyed. And so, we are here 
today, holding this hearing, with three goals in mind.
    First, we will examine the status of the recovery from the 
two deadliest wildfires in the state's history in 2017 and 
2018, as well as challenges we are facing going into the peak 
of the 2019 wildfire season. We will ask how the Federal, state 
and local Governments could be working more effectively, both 
together and on their own, to ensure that basic needs of 
wildlife recovery are met, that debris are removed quickly and 
efficiently, that there is sufficient affordable housing for 
people who have been displaced, and that all people who are in 
need of public assistance can access it.
    It is our new reality that wildfires are occurring in more 
urban areas and wildfires are becoming more intense and more 
frequent due to climate change. So, in the future, FEMA is 
going to be playing a much bigger role with wildlife response 
and recovery than they have in the past, and fire management 
will have to expand outside the usual purview of the state 
Government, the Forest Service, and the Department of the 
Interior.
    We in Congress want to help FEMA in taking on this new and 
challenging role, and we want this hearing to serve as an 
essential step to do just that. We also want to hear about 
wildfire mitigation strategies that are being implemented on 
the state, as well as the Federal Government levels, and areas 
where we can improve at all levels of Government to better 
prepare for these devastating wildfires.
    The second goal of this hearing is to underscore the 
enormous public health consequences of wildfires, especially 
when fires ravage densely populated areas. Burning vegetation 
releases particulate matter into the air that causes 
inflammation and irritation of the lungs, decreasing lung and 
heart functionality over time, in addition to exasperating 
symptoms of asthma and emphysema. And if that is not bad 
enough, the 2018 Paradise Wildfire revealed another major 
public health threat, the release and spread of toxic 
chemicals.
    When wildfires ravage urban communities which in the past 
were very rare, chemicals such as lead and asbestos that are 
contained in pipes, building materials, refrigerators, and 
other household necessities get released into our air, our 
soil, and our water. Finally, this hearing will demonstrate 
that if we in the Federal Government do not take action on 
climate change, we are digging our own graves fire by fire, 
hurricane by hurricane, heatwave by heatwave. The statistics 
from last year's wildfires alone should make our heads spin.
    Total economic losses to the state of California were 
estimated to run at least $400 billion, making the 2018 
wildfire season the most expensive natural disaster in the 
history of the United States. State and Federal authorities say 
that it will cost at least $3 billion to clear debris from 
19,000 homes and businesses. Over 1.8 million acres of land 
burned last year, approximately two and a half times the amount 
of land that burned the previous year in 2017. But to be honest 
though, as horrifying as these numbers are, they do not come 
close to getting at the true devastation wrought by forest 
fires.
    Fires do not just damage homes that can later be repaired, 
they destroy homes and lives. They reduce families' entire 
histories to piles of toxic rubble. My home, like every 
American, is fundamentally a part of who I am. Everything we 
keep in our home tells our stories, the old photo album, the 
high school yearbook, our children's old artwork. These are 
stories that we cannot bear to part with, family heirlooms that 
have been passed down through generations, it is all there in 
our homes. And if we were to lose it, we lose a core part of 
ourselves.
    I cannot imagine the pain of watching the life you have 
built go up in flames right before your eyes. And yet, we in 
Congress have not done enough to mitigate these fires for the 
future because we are wasting our time arguing over whether 
climate change is even real. There is no other word for it but 
shameful. Let me end by quoting from the state of California's 
Fourth National Climate Change Assessment, by 2100, if 
greenhouse gas emissions continue to rise, one study found that 
the frequency of extreme wildfires burning over approximately 
25,000 acres would increase by nearly 50 percent, and that the 
average area burned statewide would increase by 77 percent by 
the end of this century.
    People in California have seen the extraordinary damage 
wildfires have done just in the past two years. Do we want our 
children and grandchildren to continue to suffer and have worse 
conditions than us? Every single person in this room wants the 
same thing, for our children to have better lives than we do, 
but little by little with, every day that we do not act, we are 
chipping away at their future, their homes, their air, their 
water, their hearts, their lungs, their livelihoods. We must 
fight together to make sure this does not happen on our watch.
    Thank you, and I now invite my colleague on the 
subcommittee and Vice-Chair for the full committee on 
oversight, Ms. Hill, to give a five-minute opening statement.
    Ms. Hill. Thank you so much, Mr. Chairman. And again, thank 
you all for being here. This is a great honor to have a hearing 
like this in our district. So many of you in the audience have 
felt the impacts of these all-too-common wildfires.
    Less than a year ago, the Woolsey Fire became the most 
destructive in L.A. County history, which started right here in 
our own backyard, and the seventh most destructive in state 
history. You have been evacuated from your homes, you have 
watched houses and other structures burn, you have felt the 
anxiety of not knowing what you will come home to. Well, many 
people across the country on TV and social media have watched 
as these fires continue to burn, affecting the same 
neighborhoods and communities year after year. We have 
experienced them firsthand.
    As the chairman mentioned, my family and I have been 
personally impacted by these fires as so many others in this 
community have. I had to evacuate my home last summer. We had 
to trailer my horse, relocate my other animals to my sister's 
house, only for my sister to also be evacuated later. And I 
cannot emphasize enough that this was not the first time. Every 
single member of my family at some point or another living in 
Santa Clarita has been evacuated over the years. And it has 
become a common occurrence for people in areas like ours. And I 
know so many constituents here in Simi Valley and throughout 
the district and state who have endured evacuations just like I 
have.
    Some have unfortunately returned to their homes that have 
been completely damaged or destroyed. Our communities face 
constant uncertainty and we fear for our homes, families, and 
sometimes for our lives. Wildfires have always been a part of 
life in California. However, because fire-prone areas are 
vastly more populated than they were decades ago and fire 
season is longer and more severe, the risks that we face are 
more potent today than ever before. I cannot express how 
grateful I am for the tireless work of our dedicated and 
courageous firefighters and first responders. With the hot and 
dry conditions and heavy winds that they encounter, containing 
and extinguishing these fires is often a Herculean task.
    We must all do our part to prevent these out-of-control 
wildfires from burning throughout our neighborhoods and work 
together to mitigate the damage when they do. This includes our 
local county, state, and Federal agencies. We need to talk 
about the root causes of these wildfires and their impacts on 
our communities and acknowledge that climate change has been a 
major driver of the destruction that has wrought throughout our 
state. Over the last century, Southern California has grown 
about three degrees warmer.
    It is not a coincidence that we have also been experiencing 
larger and more frequent wildfires over the past few decades, 
higher temperatures and droughts, dry-out vegetation, making 
our landscape a virtual tinderbox. We are also seeing more 
winter rain in fire-prone areas. This leads to more growth, 
which can be dried out during our hot summers and in some areas 
can become ultimately fuel for more fires. Wildland fires, 
including large fires, are a natural part of ecosystems in 
California, and many native plants and animals depend on 
habitat created by fires.
    That being said, we must also address the fact that many 
wildfires do occur naturally--do not occur naturally but are 
instead the result of human inaction or action itself. Some are 
caused by a person's negligence or thoughtlessness, such as the 
campfire left to burn, or a lit cigarette discarded in the 
middle of dry brush. Equipment belonging to California utility 
companies has been responsible for igniting some of the most 
catastrophic wildfires with the most severe impacts to 
communities in state history.
    Consumers should not bear the heavy burden of paying for 
damage that these companies are responsible for. We need to 
find an equitable and effective solution for the role that the 
utility companies play in causing wildfires and for the hefty 
price of cleanup and repair after these fires have burned 
throughout our communities. Last month, I am proud to have 
introduced an amendment on the House floor to address our new 
wildfire reality. The amendment increases funding for wildfire 
preparedness, suppression, and emergency rehabilitation, 
bringing funding for these critical issues to a total of $5.2 
billion.
    This is one step in the right direction, but we must 
continue to work at finding evidence-based effective solutions 
that will help keep communities in California and across the 
country safe, and that includes a partnership with our state 
colleagues. I am very proud to be working with Assembly Member 
Smith and Senator Stern. We have a letter that has been entered 
into the record from our colleague and Representative of this 
area, Senator Stern, talking about the investments that the 
state has been putting into addressing wildfires, including 
$226 million toward forest health and wildfire prevention 
efforts, and another $257 million to bolster firefighting 
resources and technology.
    So, I am proud to be working with our state and local 
representatives as we try to figure out long-term solutions and 
the Federal Government's role in addressing this crisis. We 
cannot be complacent as wildfires continue to devastate our 
communities. It would be irresponsible to pretend that fire 
seasons today are no different from fire seasons of the past.
    Yes, this our new normal, but we can and must do better to 
protect communities from wildland fires, and that is where the 
focus of our resources and attention should be. For my 
community, for California, and for states across the country 
experiencing the devastating effects of wildfires, we need to 
work together.
    Thank you and I yield back.
    Mr. Rouda. Thank you, Congresswoman Hill. Now I want to 
welcome our first panel of witnesses. Robert Fenton, Region IX 
Administrator, Federal Emergency Management Agency. Randy 
Moore, Regional Forester, Pacific Southwest Region, USDA Forest 
Service. Mark Ghilarducci with the California Governor's Office 
of Emergency Services. And Mark, I want to thank you as well. 
You came to Washington and also participated in our hearing on 
this topic there as well, with some very poignant comments and 
observations on how important and challenging communications 
are during--when--we are trying to fight fires in the wild. And 
[I] hope to hear more about that as well today.
    And then Dan Johnson, Southern Region Chief, California 
Department of Forestry and Fire Protection. If the witnesses 
would please stand. Do you swear or affirm that the testimony 
you are about to give is the truth, the whole truth, and 
nothing but the truth so help you God?
    [Witnesses sworn.]
    Mr. Rouda. Let the record show that the witnesses answered 
in the affirmative. Please be seated. The microphones are 
sensitive so please speak directly into them. Without 
objection, your written statement will be made a part of the 
record. With that, Mr. Fenton, you are now recognized to give 
your oral presentation of your testimony.

 STATEMENT OF ROBERT FENTON, REGION IX ADMINISTRATOR, FEDERAL 
                  EMERGENCY MANAGEMENT AGENCY

    Mr. Fenton. Good morning, Chairman Rouda, Representatives 
Hill, Brownley, and Torres. My name is Robert Fenton. I am the 
Regional Administrator of the FEMA Region IX office located in 
Oakland. It is my pleasure to be here today to discuss FEMA's 
preparedness and response to the wildfires in California.
    As you know, California has a long history of wildfires. 
The years between 2012 and '15 were the driest period on record 
in California. By contrast, the following winter of 2016 was 
one of the wettest periods in California's history, but it did 
not change the overall dry conditions in the forests and 
watersheds. In 2017, more than 9,000 fires burned approximately 
1.2 million acres of land, well ahead of the five-year average. 
That means more than one percent of California's land burned in 
2017.
    Last year, California saw its most destructive fire season. 
More than 1.6 million acres of land were destroyed by 
wildfires. The Camp Fire in Butte County alone destroyed more 
than 18,000 structures and burned more than 153,000 acres. The 
fire destroyed more structures than the previous seven worst 
fires in California combined. Tragically, it was also the 
deadliest fire season.
    While 2018 has ended, the impacts of that unprecedented 
fire season will continue for years to come. So how can we 
prevent this type of disaster from happening in the future? The 
wildfire season has reinforced what we know. Building more 
resilient communities reduces risks to people, property, public 
budgets, and the economy. I cannot overstate the importance of 
focusing on investing in mitigation before disaster strikes. 
Developing capacity before an incident occurs reduces the loss 
of life and economic disruption. When communities are impacted, 
FEMA wants to see rebuilding that is smarter, safer, and 
stronger. However, there are significant challenges that 
property owners and communities face in pursuing resilience.
    For that reason, FEMA's Acting Administrator Pete Gaynor is 
calling for a change in the life cycle of opportunity to move 
mitigation investment to the front of the disaster cycle, not 
at the end where it typically lies. FEMA is working with 
Federal, state, local, tribal, territorial, and private sector 
partners to help align pre- and post-mitigation investments to 
more effectively reduce losses and increase resilience.
    FEMA manages the Hazard Mitigation Grant program, the Flood 
Mitigation Assistance Grant Program, and the Disaster 
Mitigation Grant program that funds projects such as seismic 
retrofits, defensible space, safe rooms, risk reduction for 
utilities, and other infrastructure. These funds play a key 
role in building resilient communities by reducing the risk of 
future disaster losses. These programs also fund other 
effective wildfire mitigation projects such as ignition 
resistant construction and hazardous fuel levels reduction 
efforts. Mitigation is vital to California.
    The National Institute of Building Science's Multi-Hazard 
Mitigation Council has shown that mitigation programs have 
saved the American public an estimated $15.5 billion by 
building new construction beyond code requirements, $158 
billion in savings from Federally funded mitigation grant 
programs from 1993 through 2016. From the preparedness 
perspective, FEMA continues to maintain and strengthen the 
national preparedness system by helping our non-Federal 
partners build their capabilities, which will reduce their 
resilience on the Federal Government in the future.
    Together, we are working to achieve the national 
preparedness goal of a secure and resilient Nation with the 
capabilities required across the whole community to prevent 
against, mitigate, respond to, recover from the threats of a 
hazard that pose the greatest risk. For example, FEMA is 
focused on promoting integrated mutual aid across the whole 
community. We are fortunate to live in a state that has a 
strong mutual aid program. In fact, many other states can learn 
from California's advanced and time-tested system of statewide 
mutual aid.
    Additionally, FEMA and the U.S. Fire Administration, in 
partnership with the U.S. Department of Homeland Security's 
Science and Technology Directorate has convened several 
learning and sharing sessions, two of which occurred in 
California, to ensure fire operational leaders are familiar 
with the latest technologies and methodologies for fighting 
wildfires, and to identify gaps where existing technologies 
would aid in reducing the devastating effects of wildfires to 
people, homes, businesses, and infrastructure located in fire-
prone areas.
    By far, the 2018 wildfire season was one of the busiest in 
California and FEMA. I would like to acknowledge that FEMA did 
not do this alone. Wildfires pose many challenges at all levels 
of Government. The state of California has done an 
extraordinary job of building their emergency management 
capabilities and coordinating local and state level response 
and recovery efforts. Their leadership and heroism continue to 
be instrumental in helping FEMA help survivors.
    Developing resilient communities ahead of an incident can 
reduce the loss of life and economic disruption. When 
communities are impacted, they should ensure that they rebuild 
infrastructure better, together, and stronger. While will never 
be able to eliminate risk, we must mitigate risk to every 
extent possible. Going forward, there are a few more 
opportunities to work together with our partners to identify 
solutions.
    This concludes my opening statement. I look forward to 
answering your question, sir.
    Mr. Rouda. Thank you, Mr. Fenton. Mr. Moore?

STATEMENT OF RANDY MOORE, REGIONAL FORESTER, PACIFIC SOUTHWEST 
     REGION, U.S. DEPARTMENT OF AGRICULTURE FOREST SERVICE

    Mr. Moore. Good morning. Mr. Chairman, Congresswoman 
Brownley, Congresswoman Hill, and Congresswoman Torres. Thank 
you for inviting me here today to give testimony to this field 
hearing. My name is Randy Moore. I serve as the Regional 
Forester of Pacific Southwest Region of the USDA Forest 
Service, and I am happy to talk about the important work that 
we are doing with our partners to prepare for and mitigate the 
risks of wildfires here in California. In 2017 and 2018, 
California experienced the deadliest, most destructive 
wildfires in history.
    More than 17,000 wildfires burned almost three percent of 
California's landmass. These fires tragically killed 146 
people, tens of thousands of homes and businesses, and 
destroyed billions of dollars in property. In all national 
forests impacted by these fires, we are conducting salvage 
operations, we are beginning reforestation efforts, and we are 
further reducing hazardous fuels in our national forests.
    In 2019, fire year in California began with an extremely 
wet winter and extend it into May of this year. This much-
needed precipitation replenishes reservoirs and delayed the 
start of fire season at higher elevation forested lands. As a 
comparison over, 4,700 fires have burned over 4,462 acres 
across all jurisdictions in California to date. This time last 
year, we had 8,000 fires and burned nearly 940,000 acres.
    While we are seeing a slow start to the 2019 fire year, the 
large potential room is still trending above normal as the 
grass is dried out, the lower elevations and productivity is 
expected to increase over the next few months. Currently, more 
than 25 million acres of California's wildlands are classified 
as a very high or extreme fire threat. There are approximately 
11 million people living in this high-risk area. We all know 
that actively managing these fire-dependent landscapes and 
implementing fuel reduction projects can reduce the frequency 
and the impact of severe wildfire events.
    In light of the new normal of longer fire seasons and 
larger, hotter more destructive wildfires, we recognize that we 
need to look at wildfires and hazardous fuel reduction 
differently. Last year USDA launched its Shared Stewardship 
Approach to Management that brings states and stakeholders 
together to prioritize cross-boundary investments to improve 
forest conditions. The lead agencies in California, Forest 
Service and California Natural Resources Agency, will be 
signing the Shared Stewardship agreement.
    Together we plan to achieve our mutual goals of treating 1 
million acres in California's forest rangelands. Two weeks ago, 
over 80 Federal, state, and local governments, private 
landowners, and nonprofit organizations to begin mapping forest 
conditions across the state. We will use this map to focus and 
prioritize our hazardous fuel reduction project together so 
that we are treating the largest scraps of land at one time, 
making the treatments more effective, and of course, more 
healthy and fire resilient.
    I want to thank Congress for making the Shared Stewardship 
approach possible with the increased capacity to provide the 
regional legislation, including a 2018 omnibus bill and farm 
bill. The Forest Service is also promoting fire-adapted 
communities by collaborating with other Federal and non-Federal 
Government entities. For example, the Forest Service assists 
state foresters and local communities to build capacity for 
prevention, mitigation, and suppression of wildfires on Federal 
lands and non-Federal lands. Training provided through the 
program provides for effective and safe initial response to 
wildfires.
    This year in California, we will assist over 500 
communities through a statewide outreach and educational 
program. The Forest Service also supports local fire 
preparedness and suppression efforts and provide funding for 
equipment, training, and expansion of volunteer fire 
departments where little or no fire protection is available. 
This year, the agency will support 141 local fire departments 
in California serving 695 communities.
    Last, the Forest Service partners with the California Fire 
Safe Council to protect home and communities from wildfires. 
Over the past several years, over 500 communities have been 
assisted through Forest Service grants, and funds, and 
outreach, and education projects, community risks, hazardous 
fuels, and community mitigation projects. Working together 
across landscapes, we can create healthy forests that will 
stand the pressures of increasing temperatures, prolonged 
droughts, and longer and hotter fire seasons. Using the tools 
provided by Congress and innovative solutions to share 
stewardship with partners, the Forest Service is making great 
progress and plans to improve forest conditions continually.
    This concludes my remarks, Mr. Chairman. I would be happy 
to answer any questions you have.
    Mr. Rouda. Thank you, Mr. Moore. Mr. Ghilarducci?

STATEMENT OF MARK GHILARDUCCI, DIRECTOR, CALIFORNIA GOVERNOR'S 
                  OFFICE OF EMERGENCY SERVICES

    Mr. Ghilarducci. Good morning, Chairman Rouda and 
Representatives Hill, Brownley, and Torres. My name is Mark 
Ghilarducci and I am the Director of the California Governor's 
Office of Emergency Services. First, thank you for inviting me 
to testify once again on the recovery from the devastating 2017 
and 2018 wildfire season, and ongoing emergency preparedness 
efforts to safeguard California in 2019 and beyond.
    California continues to prepare for another wildfire season 
through the enhancement of firefighting capabilities and 
aggressive vegetation and fire fuel mitigation efforts in high 
severity fire zones while continuing to support the recovery 
efforts of multiple communities impacted by the 1917 and 1918 
catastrophic wildfires. Again, climate change continues to act 
as a force multiplier when it comes to wildfires and their 
destruction. It is important to note that 10 of the state's 20 
most destructive wildfires have occurred just since 2015.
    Climate change factors have driven the extensive, erratic, 
and rapid spread of wildfires, and this trend is expected to 
continue with the estimated burn area for fires to increase by 
77 percent by the year 2100. This year, Governor Newsom and the 
California legislature acted quickly to create a legislative 
package to further prepare the state with primary efforts 
designed to increase situational awareness to better alert 
warning capabilities, enhance implementation of next-generation 
911, to modernize the state's 911 system, strengthen codes and 
regulatory oversight, increase preparedness efforts across the 
state, particularly in vulnerable communities, increase 
firefighting capabilities with more equipment and personnel, 
focus utility preparedness and risk mitigation efforts, and to 
buy down the risk of wildfire by accelerating multiple projects 
to create defensible space in high severity fire zones.
    Assembly Bill 1054 and Senate Bill 111 address the safety, 
accountability, and stability for residents, businesses, and 
utilities of California through novel requirements and 
policies. The legislation includes enhancements to existing 
regulatory authorities and establishes a Wildfire Safety 
Advisory Council to advise and make actionable safety 
recommendations to the California Public Utilities Commission.
    These bills also establish new and innovative policies that 
will increase the responsibility of investor-owned utilities in 
safeguarding against wildfires. The overall direction to the 
IOUs was to better protect infrastructure and mitigate the 
possibility of fire starts. As a result, the IOUs have 
instituted the Public Safety Power Shutoff Program. This 
program is implemented by the utilities when conditions 
indicate a high probability for fire, such as during a red flag 
warning situation.
    Cal OES along with CAL FIRE is working with the IOUs to 
refine public education, enhance overall preparedness planning 
efforts, and streamline the notification process to local 
governments and to the public. In addition, as part of ensuring 
for the states Fire Mutual Aid response capability, Cal OES, 
CAL FIRE, the US Forest Service, the USDA along with local 
governments have jointly come to terms regarding the current 
interpretation and implementation of the 2019 California Fire 
Assistance Agreement that provides for reimbursement to state 
and local fire responders. This agreement is a critical 
component to reinforce relationships and ensure that the 
capacity of local and state fire mutual aid assets, that 
respond to wildfires at the request of the Federal Government, 
remain in place, and are reimbursed in a timely and efficient 
manner.
    A top priority during both the 1917 and 1918 wildfire 
recovery efforts remains the facilitation of rapid debris 
removal operations. Without a successful and rapid debris 
removal program, communities would be unable to start to 
rebuild, amplifying public health and safety issues, and 
stalling both individual and community economic recovery. 
Private property debris removal on this scale is a new process 
in California.
    Following the 2017 wildfires, California sought the 
assistance from the United States Army Corps of Engineers 
through FEMA to clear debris in Sonoma, Napa, Mendocino, and 
Lake Counties. Since then, Cal OES has moved rapidly to build 
capabilities within the state and have adopted best practices 
from the lessons learned in 2017 to better oversee and 
effectively facilitate state-managed debris removal with 
efficiency and accountability. Following the 2018 wildfires the 
next year, Cal OES undertook multiple large-scale debris 
removal operations in both Los Angeles and Ventura Counties 
here in Southern California, and Siskiyou, Shasta, and Butte 
Counties in Northern California.
    Removal of debris from the Hill and Woolsey Fires was 
completed during the final week of July 2019. A total of 
422,229 tons of debris was removed from the burn areas of the 
Hill and Woolsey Fire. The Camp Fire debris removal program in 
Butte County, with more than 18,000 storage structures, is now 
roughly 85 percent complete. Both projects have been efficient 
and have exceeded metrics and timelines initially set.
    In addition, throughout the 1917 and 1918 wildfire recovery 
efforts, assistance to individuals has been another top 
priority. Throughout this process, FEMA has been very helpful 
in providing transitional sheltering assistance and temporary 
housing solutions for several thousand individuals and 
families. The Team at FEMA Region IX have consistently been 
great partners and solution oriented. However, IA programs 
continue to remain a complicated challenge. Catastrophic 
events, like the recent wildfires, severely disrupt lives and 
businesses, and the Federal IA programs are essential for 
helping individuals and the community begin the recovery 
process.
    Recently, however, FEMA issued new guidelines and 
declaration factors for obtaining individual assistance 
designation. While we are still evaluating these new factors, 
our initial analysis indicates that they may result in a 
negative impact to California, making it harder to obtain 
individual assistance and the ability to recover from future 
disasters. The new factors take into account several new 
indicators in determining if the event will qualify for IA, 
including the state's fiscal capacity, the state's total 
taxable resources, gross domestic product, nonprofit 
capability, and per capita income of the local area.
    States such as California, with large and extremely diverse 
populations and large taxable baselines, appear to be penalized 
as there will be an assumption that the state has the fiscal 
capacity to handle the impacts of the event with its own 
resources. We believe these changes would now require the state 
to demonstrate at least twice as much eligible damage before IA 
support would be granted. Time will tell how these new factors 
will be interpreted and applied.
    In conclusion, I would like to thank you for the 
opportunity to testify before you on these very important 
topics, and for your continued support. California is committed 
to developing and promoting innovative prevention and 
mitigation initiatives, and wildfire management throughout the 
state. However, these initiatives, programs, and policies 
cannot succeed in the vacuum. They will require the whole of 
community participation and support from every level of 
Government to reduce the threat of devastating wildfires, 
protect lives and property, and build a more resilient 
California.
    Thank you.
    Mr. Rouda. Thank you, Director Ghilarducci. Mr. Johnson, 
five minutes for your opening testimony.

  STATEMENT OF DAN JOHNSON, SOUTHERN REGION CHIEF, CALIFORNIA 
           DEPARTMENT OF FORESTRY AND FIRE PROTECTION

    Mr. Johnson. Good morning Honorable Chairman Rouda and 
Representatives Torres, Hill, and Brownley. Thank you for being 
here this morning. My name is Dan Johnson. I am the Southern 
Region Chief of the California Department of Forestry and Fire 
Protection known as CAL FIRE. I began my career at CAL FIRE in 
1982 as a volunteer firefighter in our CAL FIRE Riverside unit 
and have served in a variety of roles in units across Southern 
California until I was recently appointed to my current 
position late last year.
    As the Southern Region Chief, I am responsible for the 
Operations Administration of CAL FIRE's nine administrative 
units and divisions located South of Sacramento, in the Bay 
Area, stretching to Mexico. I also receive delivery services of 
five Southern California contract counties to provide direct 
fire protection to the state's responsibility areas within 
their jurisdiction on CAL FIRE's behalf.
    In opening, I would like to talk a little bit about a 
recent experience with disasters in California, and what we are 
doing as CAL FIRE to lean forward and make our natural 
environment more fire resilient, to make our homes and 
infrastructure more fire-resistant, and to mitigate the threat 
of wildland fires.
    Our state certainly faces its share of natural disasters, 
from devastating earthquakes, wildfires, to flooding, drought, 
and the threat of tsunamis. California is a state where no 
matter where you live, natural disasters are unavoidable. Until 
the recent earthquake in Kern County, wildfires have been at 
the top of everybody's minds. And while wildfires are a natural 
part of California's landscape and ecology, during the past two 
years, we have experienced the most destructive fires in our 
recorded history.
    As my partners all state and identified previously, in 2017 
over 10,000 structures were destroyed, in 2018 over 22,000 
structures were destroyed, and over the last two years, close 
to 2 million acres were burned across our state, and over 100 
people, residents, and first responders, tragically lost their 
lives in wildfires.
    The effects of climate change, fire suppression activities, 
overgrown forests, and prolonged drought have resulted in 
unprecedented tree mortality in the state's forests, as well as 
an increased number of size and severity of our wildfires. Loss 
of life and structures is a direct or proximate result of 
wildfires is at an all-time high. But California is resilient.
    Beginning last year, California committed to spending $1 
billion dollars over the next five years to improve forest 
health and reduce fuel loads in our wildlands. In this Fiscal 
Year alone, Governor Newsom and the Legislature allocated 
nearly a billion dollars for emergency management and response 
programs, including money to build an earthquake early warning 
system and update our nearly 40-year-old 911 system to next-gen 
911. At CAL FIRE, we are making strategic investments to 
respond and to mitigate the impacts of wildland fires in our 
state. We are working closely with the United States Coast 
Guard and the United States Air Force to retrofit seven Federal 
C-130 Hercules Aircraft and the air tankers.
    We are replacing our 60's version Vietnam-era UH1H Huey 
Helicopters with the modern Black Hawk capable of nighttime 
aerial firefighting in a much larger capacity of water. We are 
adding 13 additional engines, year-round engines, and 131 
positions to our existing fleet of 343 engines to meet the 
increased demand for wildland fire response and the need for 
firefighting resources earlier and much later in the calendar 
year. And we are additionally hiring an additional 394--or 
excuse me, 393 seasonal firefighters just as of these last two 
weeks to increase staffing for wildfire suppression, fire 
lookouts, and enable the additional shift rotations for a 
cruise during this year's fire season.
    With these new resources, CAL FIRE is building its capacity 
to confront the new reality of larger and more frequent 
wildfires occurring across the state. In the area of fire 
prevention, we are working to complete 35 priority field 
projects, refuel reduction projects that will help reduce 
wildfire risks to over 200 of California's most vulnerable 
communities. This work is being done by CAL FIRE's six 
dedicated fuel reduction crews and five National Guard crews 
funded by CAL FIRE's partnership with local communities, and we 
are in the process of standing up for additional crews to bring 
our overall capacity to 10 year-round fuel reduction. We are 
getting ready to implement a new round of forest health and 
fire prevention grants in direct funding projects, totaling 
approximately $100 million.
    These projects will focus on wildland-urban interface 
projects and landscaping level forest health and fuel 
reductions. We also continue to work in partnership with our 
state--I am sorry, our Federal and local partners on a variety 
of forest health projects to address such things as forest 
insect and disease mitigation, research, reforestation, tree 
thinning, and other actions to restore watershed health and 
function, and support biodiversity and wildlife adaption to 
climate change.
    And finally, but critically important, our public education 
program helps inform Californians about the fire risk and fire 
prevention measures and provides advice on steps families can 
take to harden their homes, to make them more resilient to 
wildfire. I would like to close by emphasizing the value CAL 
FIRE places on our close relationship with our Federal 
partners.
    Every day in our Southern Region Operational Center, 
Federal and state representatives from the Forest Service, 
Bureau of Indian Affairs, Bureau of Land Management, National 
Parks work side-by-side with CAL FIRE and our OES partners in 
joint missions to protect the people, property, and natural 
resources in California. Thank you, honorable chair and 
committee members, for the opportunity to testify today. I will 
be happy to answer questions.
    Thank you.
    Mr. Rouda. Thank you, Mr. Johnson, as well as all of the 
witnesses. The chair now recognizes Congresswoman Hill for five 
minutes of questioning.
    Ms. Hill. Thank you so much, Mr. Chairman. And thank you to 
all of our witnesses. Really quickly, I would like to formally 
request that letters from Assembly Member Smith and Senator 
Stern be entered into the record without objection.
    Mr. Rouda. So moved.
    Ms. Hill. Thank you so much. Today's hearing fits within 
the subcommittee's ongoing attention to the existential climate 
crisis. As we have heard from our witnesses, what we are 
discussing today underscores the dire conditions that we are 
currently experiencing throughout the country, including right 
here in Southern California.
    The bottom line is that climate change is getting worse 
every day and is expected to continue to increase the frequency 
and intensity of wildfires and areas across the country. Unlike 
previous versions and FEMA's strategic plan for 2018 to 2022, 
the words climate change and global warming are no longer 
included. This is notable because FEMA's previous strategic 
plans emphasize the threats posed by climate change. However, 
now these documents do not mention climate, global warming, 
extreme weather, or any other terminology associated with 
scientific predictions of rising surface temperatures and their 
effects.
    So, my question is to Mr. Fenton. Do you believe that 
climate change is real and is man-made?
    Mr. Fenton. Yes, so I think as far as climate change, you 
know, my role is to respond to disasters. I am not a scientist 
and probably cannot argue. The specifics are the same science 
behind climate change, but I would say that in my last 23 years 
of doing this, your comments are correct that we have seen 
disasters become more severe, whether it be typhoons out in the 
Pacific or fires here and have been more frequent.
    And so, we are seeing this evolution continue and really 
need to focus on, you know, resilience and how to work toward 
it. So, I very much agree with all specifics, I am just not 
going to argue climate change as I am not a scientist and 
probably----
    Ms. Hill, I appreciate the diplomatic way you answered 
that. I admire your skills actually.
    Mr. Fenton. Thank you for that question though.
    Ms. Hill. So based on scientific data, you do see a 
correlation between increasing surface temperatures and the 
frequent destructive wildfires?
    Mr. Fenton. And I am also seeing that in the Far West and 
Pacific. We are seeing more increase of waves, higher tide, 
rogue waves, now that we have not seen before covering the 
Micronesian Islands and those kinds of things. So, we are 
seeing this across my OR, which is about eight time zones and a 
very big area. So, from the fires to the Far West Pacific.
    Ms. Hill. So as a career staffer and as somebody who is, 
you know, responsible for actually addressing these threats, 
without acknowledgement of climate change in the strategic 
planning, which I know happens from an administrative level and 
is something that you just--it is given to you, how does FEMA 
Region IX expect to react to this reality of more intense and 
frequent wildfires due to climate change?
    Mr. Fenton. So, I think is a combined effort, just not the 
Federal Government. The Federal government, state government, 
local government, private nonprofit, private sector, has to do 
with this. It starts with building codes. It starts with land 
use planning. It starts with how we manage the forest, you 
know. All those things are critical parts of this, and we have 
to understand that climate is changing right now so we need to 
take into account, you know, how we work within these wildland-
urban areas, especially, you know, as we have seen a recent 
years, it is not just in the urban areas, is going into now 
metropolitan areas and those kinds of things as you see the 
fires move.
    So, we need to collectively work together. I think some of 
the authorities we were recently given under the DRRA to go 
ahead and move mitigation before disasters, start working on 
some of those issues. So why we--I think California has done a 
great job in new codes and building structures that are fire-
resistant. Upon this are the whole houses that are out there 
and what they were built out of. So, using mitigation money to 
replace roofs, make them fire resistance, or other finds to 
make them more hardened is where we need to go.
    But I think it is a collective effort at all levels, and 
those authorities to make that happen are at all levels of 
Government. So, we need to work together. I think our goals 
work toward that and the authority you have given us help us 
with that.
    Ms. Hill. And so, you have been with FEMA for three 
Administrations, four?
    Mr. Fenton. Going back to the Clinton Administration.
    Ms. Hill. Okay so four Administrations and I know that 
probably the strategic plans change every Administration----
    [Laughter.]
    Mr. Fenton. Sometimes between Administrations.
    Ms. Hill. Okay. So, you know, as you are thinking about 
this and, you know, FEMA is responsible for really being the 
last line of defense for so many Americans. How, without the 
acknowledgment of this ongoing and future crisis of climate 
change, are you concerned about FEMA's assistance capabilities 
to remove climate change preparedness from the planning 
processor or do you feel like it is career stuff, you are just 
continuing on with the work that needs to be done?
    Mr. Fenton. Yes, the work, the level of disasters, the 
amount of work has not changed. You know, I really support our 
state and local governments. That is all my authorities are to 
do that. So, the fact that that is their focus, it is my focus, 
and I continue to work on that.
    I just came back from a Pacific partnership meeting and we 
talked about tidal change out there and everything we could do 
in doing that in partnering with the universities and academic 
institutions to further look at that including NOAA and other 
organizations out there, just like we are partnering with the 
Cal OES and the different fire agencies here to figure out what 
we can collectively do better. And it is really a mosaic of 
programs and authorities between all of us that help or enable 
us to move the needle and make us more resilient and ready for 
fires.
    Ms. Hill. We appreciate your work and I recognize the 
impact that the shutdowns have had on Federal agencies, and 
that the Administrative decisions have, and that you and your 
staff have been continuing to assist us on an ongoing basis is 
definitely recognized. And we will fight to continue to make 
sure that the resources are available to you.
    I want to turn now to the Forest Service. The USDA Forest 
Service website explicitly states that climate change does 
exist and is a result of man-made greenhouse gases. I am glad 
to see that this still is the case. Mr. Moore, how is the 
Forest Service adapting to climate change?
    Mr. Moore. So, excellent question and I have to tag onto 
Mr. Fenton's response here. Here in California, and I will just 
talk a little bit about the islands too because I have 
responsibilities not only in California but in Hawaii and the 
affiliated Pacific islands, like Guam, Samoa, and the federated 
states of Micronesian. Here in California, we noticed higher 
temperatures and higher elevations, and when you look at the 
wildfires that are occurring throughout the state, they are 
occurring on higher elevations that we have not experienced in 
the past.
    And I think with five years of drought, 100 years of fire 
suppression, we have conditions out of landscape now that is 
helping to contribute to these catastrophic wildfires we are 
experiencing here today. So, what we have done, which is 
different than in the past, because in the past, the Forest 
Service used to sit down together and they would decide what to 
do, and then our public comment was, what do you think about 
what we think?
    I think that what we are doing here in California is that 
we are facilitating convenient expertise throughout the greater 
community to say, why do not we sit down and look at what needs 
to happen out on these landscapes. And I mentioned earlier that 
we have about 80 individuals, state, local, and Federal 
Governments looking to map out our landscapes throughout 
California, and what we plan to do there is to treat--what we 
are finding is that when we treat jurisdictional boundaries 
that are not as effective in making those fires behave as they 
move across the landscape, and so we have to look at landscape 
treatments where you actually make a difference on those 
landscapes, where you have communities.
    And so that is our approach now and how we are addressing 
some of these conditions out on the ground. The disease and 
insects in the Southern sea airs. You know, we have well over 
140 million trees that are dead throughout the state. And so 
that is--five years of drought has also contributed to that. 
So, we have these wildfires in these areas is unprecedented in 
terms of how it behaves as it moves across the landscape.
    Ms. Hill. Thank you. And do you believe that the refusal 
to--the change in kind of administrative policy around climate 
change has affected your ability to combat wildfires resulting 
from climate change and the planning for the coming years?
    Mr. Moore. Congresswoman, keep in mind that to an employee 
it does not matter what Administration comes in. We try and 
respond to whatever policies are in place. And that is where we 
are now, that whatever policy is in place, we are going to do 
what we can to make sure that policy is implemented. I find it 
though that with shared stewardship as an example recently, it 
has allowed us to move across the landscape and look at larger 
areas to treat.
    Bottom line is that we are trying to stop the fire and its 
behavior in California, because we live in a fire adept 
ecosystem, so fires are going to happen. What we want it to do 
is, like I said earlier, behave as it would naturally.
    Ms. Hill. Thank you, the last question really quick for you 
and then I will yield back to my colleagues and hopefully come 
back for my questions to Mr. Ghilarducci and then Mr. Johnson. 
But can you--sorry, I am losing my voice today--but can you 
just speak briefly, either Mr. Moore or
    Mr. Fenton, to the impacts that the shutdown had this 
Fiscal Year on any of your abilities to address the wildfires?
    Mr. Moore. So normally in January, what we would do is--we 
do a lot about the hiring of our seasonal work force in 
January. So, we were not able to do a lot of hiring and that is 
also when we have the best window to do prescribed burning.
    And so, to give you an example, we burned 63,000 acres here 
in California last year, which is the most we have ever burned 
since 1991, since the original fire plan. This year we are 
about halfway there. Most of our windows are disappearing. 
Although we have had a wet window, a wet spring, and wet 
winter, it has allowed us to do more than we normally would 
this time of the year.
    So, it may be balanced out in the end but so far, we have 
not reached that level that we reached last year. And so, it 
has some impacts on what we have been able to use.
    Ms. Hill. And Mr. Fenton, anything on your end?
    Mr. Fenton. This is probably been the busiest year I have 
had in Region IX. So, we were all disasters from one end of our 
area to another end with maybe a small group of people that 
work more on resilience that were not in the office, so if 
anything, diminishes more than resilience, preparedness type of 
work with communities that did not happen during that period.
    Ms. Hill. Thank you very much. I yield back to the 
chairman.
    Mr. Rouda. Thank you, Congresswoman Hill, and with a little 
luck, we will be able to get back to some followup questions. 
And before I move to the next member, just very quickly. Mr. 
Fenton, how long have you been at this job, this career?
    Mr. Fenton. Started in 1996. So, 23 years now.
    Mr. Rouda. Twenty-three years? Mr. Moore?
    Mr. Moore. Forty years.
    Mr. Rouda. Okay. Mr. Ghilarducci?
    Mr. Ghilarducci. Just about 38.
    Mr. Rouda. Mr. Johnson?
    Mr. Johnson. 31, sir.
    Mr. Rouda. Well, thanks to all of you for your incredible 
service and experience because we will certainly need it. The 
chair now recognizes Congresswoman Torres for five minutes-ish 
of questioning.
    [Laughter.]
    Ms. Torres. Thank you. Thank you so much. So, between the 
four of you, you have about a 140 and some years of experience 
on this issue. It is such an opportunity and thank you for 
hosting this briefing here as we get ready for our fire season 
that is going to hit us pretty soon within the next month or 
two. I am speaking from two different perspectives. One, not 
only as a legislator in my official capacity but No. 2, in 2005 
I lost my home and everything that I owned to a fire.
    So, speaking from that perspective of being, you know, 
homeless because you lived in a hotel and temporary shelter for 
about 14 months until my home was rebuilt, and what that does 
to a family and a community. On the issue of mutual agreements, 
that is really, really critically important to me as I look to 
how we are going to combat these wildfires that now come with 
their own climate, as has been stated in last year.
    We know that prison inmate volunteer crews are dwindling. 
That resource is getting more and more scarce. So, what are we 
doing to not only prepare communities, and I am not just 
talking about fire clearance. So, you know, I am talking about, 
how are we engaging the broader community at every level to 
ensure that we are able to either train volunteers who may be 
interested in doing this type of volunteer work as needed or 
just members of the general community to help them survive a 
wildfire. Any of you, please.
    Mr. Ghilarducci. Well, maybe I will start and just say 
that, you know, California in the context of mutual agreements 
and mutual aid----
    Ms. Torres. Can you pull your mic toward you? Thank you.
    Mr. Ghilarducci. Yes. In the context of mutual aid and 
mutual agreement, California really has the most robust, most 
innovative mutual aid system in the world. It is a system that 
gets utilized every day and it incorporates, you know, all of 
our fire services but also incorporates private sector and 
incorporates EMS and law enforcement to be able to apply and 
respond. But in advance to the fires, they are working on 
training and they are working on other kinds of community 
preparedness efforts. You know, we also have a very robust 
community emergency response team program in California.
    In fact, the Governor just this budget season put an 
additional $50 million into preparedness related efforts to 
continue to buildup not just the CERT programs but also work on 
programs like LISTOS to be able to broaden preparedness 
activities and awareness, prepare an aware sort of programs for 
all of our communities knowing full well that as much as we can 
empower our citizens, they become part of that overall result.
    Ms. Torres. What does that mean though, sir? I live on a 
hill. Outside of the fire department coming out to my home once 
a year to inspect and to give notice that we need to do fire 
clearance, I mean, what does that mean? I do not see real 
PSA's, you know, in the news. How are we informing the 
community that they need themselves to be prepared?
    Mr. Ghilarducci. So, I think one thing I am going to turn 
over to Chief Johnson because they have a very aggressive 
public service program on just what you are talking about, but 
it is important and we work through our local fire departments, 
our emergency management offices to build knowledge to give 
people information about how they can best empower themselves, 
protect themselves during emergency. That is listening, having 
emergency kits, having a family plan, knowing evacuation 
routes, more than one that you actually test with your family 
at night, because things look different at night than they do 
during the day, and having family outside the area or friends 
that you can contact to show that you are safe or to get 
information.
    And things like just the defensible space, which I will let 
Chief Johnson talk about, how important it is to harden your 
home. This is part of taking individual responsibility, and 
people--we want to give them as many tools as possible to help 
be part of that solution.
    Ms. Torres. And our local fire departments are doing a 
great job trying to do that. Chief, if you would enlighten me 
and as you expand on that answer, can you give us a briefing on 
how do we also provide information to the millions of visitors 
that make California their home during their vacation season?
    Mr. Johnson. California does spend a lot of money on public 
information via radios, TV programs. One of our more, I would 
say, program that has been most beneficial it the Ready, Set, 
Go! program, which identifies actions that should be taken 
during wildfires. Be ready to create and maintain defensible 
spacing and harden your home from flying embers. So, there is 
an educational piece of that.
    It can be accessed online, and, or through some of these 
media events that explain what that may be. Get set, prepare 
your family and home ahead of time for the possibilities of 
having to evacuate. Be ready to go, take the evacuation steps 
necessary to give your family and home best chance to survive a 
wildfire. This has been adopted by most local entities 
throughout the entire state. So that messaging is very much the 
same, but it may have some little twist and added more of a 
local piece included in that conversation.
    We also have the Ready for Wildfire app, which can provide 
a lot of educational components of what to do during a wildfire 
but also alert you to when there are wildfires in your area. 
You can actually set your location so it can alert you. And 
remember, these are CAL FIRE statewide programs that a lot of 
our local entities and partners have adapted. So, I think that 
in the past years of fires getting to where they are at 
nowadays, a much bigger effort in educating the public.
    Ms. Torres. So, are those grants that are available through 
the state at local fire departments that they can apply to 
provide some of that public information in our communities?
    Mr. Johnson. Yes, mostly every fire station that I have 
visited has had those documents right there to share at each of 
those fire stations.
    Ms. Torres. Okay. The last question. Our military has a lot 
of information and a lot of capabilities that are typically not 
available to the general public. NASA, for example, has the 
ability to provide very early warning or early information as a 
wildfire begins before it turns into the monster that will take 
then weeks for us to be able to take under control. Have you 
had any of those conversations? I am looking into legislation 
on this issue, it is why I am asking. Have you had those 
conversations at that level?
    Mr. Johnson. I can brief you on that and then turn it over 
to Director Ghilarducci. Yes, we are working with the 
Department Defense on early notification programs. We are 
actually testing it this year and have been using it.
    Ms. Torres. Through the satellites, right?
    Mr. Johnson. Through satellites, yes. And so, not to get 
too far into details, but obviously, a military component has 
to be thinned out quite a bit for our use, and we are working 
through some of those growing pains of learning that program. 
But yes, we have been getting those, and we hope to expand on 
that going into the future and have even better use of those 
notification processes and satellites.
    Ms. Torres. Thank you. Mr. Chairman. I yield back.
    Mr. Rouda. Thank you. The chair now recognizes 
Congresswoman Brownley for five minutes of question.
    Ms. Brownley. Thank you, Mr. Chairman. I appreciate it and 
thank you, Representative Hill, for hosting us today. And I 
thank the panelists for being here. Having represented most of 
Ventura County, Katie and I both have some responsibilities 
there. I feel like I have gotten to know each and every one of 
you very, very well over that course, and previously before 
being in Congress, I served in the state legislature and 
represented Malibu at the time. And went through two Malibu 
fires with you as well.
    So, I really truly, and my constituents really truly, 
appreciate your service very, very much, each and every one of 
you. So, I want to thank you for that. I wanted to ask about 
the pre-disaster mitigation that was included in the Disaster 
Relief Reform Act in Congress.
    Mr. Fenton, you know part of those resources, it is my 
understanding, you know, to focus on pre-disaster mitigation is 
to invest in things--all kinds of things to help end, sadly, 
the next fires. One of those is installing utility poles that 
do not burn, and one of the complaints I think that I received 
from leadership in various cities, particularly in the 
Administration, is that they felt like the utility poles being 
rebuilt then, and I understand that we had not passed this 
bill, or the Administration had taken place, but they were 
rebuilding telephone poles like the traditional telephone pole 
or utility pole.
    And I know in my experience in the Malibu fires when I come 
home from Washington, DC. I land at LAX, I go down the Pacific 
Coast Highway, cross over Malibu Canyon to the 101, and home in 
Westlake Village. In Malibu Canyon after the Malibu fires, 
there are all steel metal utility poles going all the way up to 
Malibu Canyon, but yet from the Administration, we are still 
replacing the old traditional utility poles. Can you talk about 
that at all? Was that just a cost element in the moment, or?
    Mr. Fenton. Yes, I am not directly familiar with 
specifically the poles down there. Maybe Mark may have more 
knowledge. But I do know that we have replaced poles with 
mitigation money, both post-disaster mitigation money primarily 
within my region, and a number of different areas both from 
typhoons and fires. Obviously, you know, there has to be a 
cost-beneficial rate for us to be able to do that, but we have 
been able to do that. I just do not know specifically about the 
ones down there, whether we had involvement or if that was a 
thing done by the local utility because it made better sense.
    Ms. Brownley. I see. So, the resources for that may come 
out of your budget, it may come out of your OES budget, or a 
local budget?
    Mr. Ghilarducci. Well, if they are publicly owned poles, 
they usually come out of the local utility provider. If they 
are the IOU owned infrastructure, then it is up to the IOUs to 
do that, and then they would go back and pull funds from their, 
you know, maintenance funds to do that. But it has been 
inconsistent throughout the state depending on various things 
from environmental to cost, to what local communities want to 
have in their community. Some communities, like the case of 
Paradise, now are going to be undergrounding many other their 
power lines, but not all communities want to do that, do that, 
and the costs always seems to rise as an issue. It is a very--
it is a topic that continues to get discussed with utilities.
    Ms. Brownley. Thank you. Mr. Fenton. Also, I know in your 
written testimony you talked about through the mitigation 
framework leadership group FEMA's working with the Federal, 
state, local levels of Government to help align pre and post-
disaster mitigation. The speaker appointed me to the select 
committee on the climate crisis, so we are trying to really 
wrestle with the issues of, you know, our global carbon 
footprint, but also really looking at issues as it relates to 
resiliency and adaptation.
    I wanted to know, you know, sort of what does that 
alignment look like and where are we--can you identify areas in 
which we are improving upon that alignment with, you know, 
Federal, state, local leadership? Can you talk about that a 
little bit?
    Mr. Fenton. So, I think it starts with the state, local 
mitigation plans and what they understand, what are the gaps 
every year? We ask that states do a DRRA that looks at risks 
and gaps within their areas. That works into the state 
preparedness report and then into their five-year mitigation 
plan.
    California has, just because of the number of fires in the 
last couple of years, not only do they have pre-disaster 
mitigation they can apply for every year, but they have almost 
$1 billion in post-disaster mitigation that they are using for 
everything from retrofit projects to reduction of fires, things 
like ignition resistant roofs to erosion control and hybrids 
burn areas, to revegetation, to warning systems to upsizing 
poles because of post-fire potential flooding and mudflows, and 
those kinds of things.
    Ms. Brownley. So, in California then, just in California 
because I know California has a lot of good laws around this, 
would you say that we are in better shape than some of the 
other areas that you cover? And would you say that across 
California it is relatively consistent from region to region in 
terms of that alignment, or do you think that it is all, you 
know, it is all over the place just based on what local cities, 
and?
    Mr. Fenton. Yes. So, I think it is complex because it is 
very dynamic. You know, we can focus on a burned area 
collectively, everyone here at this table, and we look at the 
post-burn area and what to do to mitigate that area for future 
events, but then there is new housing being built which 
California is pretty good from a codes standpoint of 
establishing that, and there is old housing that we need to 
look at.
    As we are constantly looking at all that and where people 
are building and whether it makes sense from a planning 
perspective to build in high-risk areas, burn areas, whether it 
is a WUI area or whether it is on top of a fall. And so, it is 
very dynamic and complex. I think California has done a good 
job of creating programs that allow the public to access those 
for whether it is Bolt and Brace, or other programs in the 
Wildland Urban Interface area. But California is so big, it is 
difficult to do that all very quickly.
    So as much new construction is happening. We are trying to 
work on old houses, trying to improve the planning, keep the 
codes there. And so, it is very dynamic and very complex as we 
do this. I think California is doing, you know, a fairly decent 
job better than the most in doing that but it is such a big 
area, it is such a complex area, you know, where social, 
economic issues that you are dealing with makes it complex.
    Mr. Brownley. Well, I certainly saw the difference just in 
terms of the Thomas and the Woolsey Fire. Woolsey Fire, if you 
drove up through the Oak Park area, you could see where the new 
housing and the new regulations really benefited those 
communities compared to the city of Ventura, older homes, just 
neighborhoods were truly just kind of wiped out. So, I 
certainly saw firsthand the impacts of some of California's 
laws in terms of housing construction, and that is a very 
positive thing. Am I under the five-ish rule or the----
    Mr. Rouda. We will get back to you for some additional 
questions.
    Ms. Brownley. I yield back, Mr. Chairman.
    [Laughter.]
    Mr. Rouda. Thank you. I now recognize myself for a line of 
questions. Mr. Moore, you talked about, we had a very wet 
season and I think a lot of people are under the, perhaps, 
misconception because we had so much rain and snowpack that we 
should not expect as severe of a wildfire season, yet as much 
as we enjoyed the bloom, as well as the mustard bush that is 
not indigenous to California, it is all now dead and excellent 
tinder for fires. So, are we under a misconception that with 
heavy rainfall and snowpack that we have less chance of 
wildfires?
    Mr. Moore. Yes. Thank you, Mr. Chairman. I do think that is 
a common misconception that people have. What has happened with 
this wet season is that you have a lot of grass, tall grass, 
and now that it is cured through the hot weather, it is more or 
less kindling for these larger fires. And so, while we have had 
really decent temperatures in general, all that it has done is 
delayed the potential for that nasty fire season. Instead of 
say June, July, it is now a September-ish. And so, over the 
next couple of months, we are expecting the tension to be quite 
high for potential fires.
    Mr. Rouda. Thank you.
    Mr. Moore. In fact, it is a misconception to say that we 
have not had fires because we have had a couple of fires. We 
have been very successful in putting those fires out on the 
initial contact. In fact, we have 98 percent successful to date 
in extinguishing those fires.
    Mr. Rouda. Good. Mr. Johnson, you talked earlier about 
additional hiring you have done this year, additional assets 
you are deploying. Can you briefly talk about where the funding 
for those additional hires and assets came from?
    Mr. Johnson. The funding came from Governor Newson to 
support our more year-round fire season that is occurring, so 
we bolstered the hiring to earlier in the year and later in the 
year and asked for additional firefighters to bolster that and 
to actually get people off duty.
    Mr. Rouda. Excellent. And then this question is really for 
all four of you so I would like all four of you to weigh in on 
this. I think it is of utmost importance that we focus on 
mitigation. And, you know, just like healthcare, trying to 
address health care needs upfront is typically a lot cheaper 
than dealing with the issue in the emergency room down the 
road.
    And so, when we talk about mitigation efforts, you know, it 
is unfortunate that the President would suggest that buying and 
training people on how to use rakes is a good solution for 
mitigating firefighting, and I recognize that you certainly 
have ideas on how best to mitigate. And you have talked about a 
lot of that here before, but I want to hear from each of you, 
your perspective on what the Federal Government can be doing to 
help in the mitigation efforts, whether it is block grants to 
the states or additional assets being deployed.
    So maybe we will just go right on down the line, Mr. 
Fenton, and start with you.
    Mr. Fenton. So, as I talked about, we work with each one of 
our states to build strategic five-year mitigation plans to 
identify where those risks are. And then we have a number of 
different pots of mitigation money that states, and local 
governments, could compete for both pre-disaster mitigation and 
post-disaster mitigation. As I spoke to, California has I think 
it is a little bit over $600, $700 million from a recent couple 
of years of disasters, and that will only get bigger as those 
estimates get bigger from those disasters.
    It is critical that, I think, we have an overarching plan 
of where to make those investments at as California is at 
threat from multiple risks, just not fires but earthquakes, 
floods, and other risks, and so we need to make sure that those 
plans, not only at the state level by can carries down the 
local level, and then integrate the public, that they are aware 
of the risks, and that we all collectively work together to 
mitigate and minimize those.
    Mr. Rouda. Let me ask you because you said you were working 
with local communities to have them apply for grants for 
mitigation, both pre and post. Do you see times where you have 
limited assets, limited capital that you are making tough 
choices, and that some local municipalities are not getting 
needed dollars to address appropriate mitigation?
    Mr. Fenton. So, I think the biggest limitation is the cost-
share on their behalf. Right now just because the sheer amount 
of disasters we had and the new authority you have given us to 
take six percent of the disaster fund and put it for pre-
disaster, started thinking 2020, I do not think there is an 
issue yet if we do not have enough to make up the 75 percent 
that we contribute.
    I think the issue is local governments coming up with the 
25 percent or some type of in-kind resource match, but there is 
a lot of great mitigation projects going on that we see local 
governments take on. An example would be, you know, me and Mark 
were talking about the Truckee Fire Department went ahead and 
did a program where they replaced non-fire-resistant roofs on 
residential structure with fire-resistant roofs, with 300 or 
400 different roofs that we were able to put on.
    Projects like that where you reduce the threat by changing 
the type of construction for old homes, changes to the risks 
significantly there. So, there are a lot of good projects out 
there. What I see is that some entities do not have the 25 
percent. I think what California has done is they have been 
able to take that and look for ways to match that, whether it 
is our Brace and Bolt program or other programs that Mark and I 
talked about how we----
    Mr. Rouda. To get them to thresholds. Good. Mr. Moore?
    Mr. Moore. Thank you. So just in the last two years, the 
Forest Service alone has spent about $1 billion on suppression 
activities here in California. And so, when you look at the 
fire budget, you have the preparedness budget and then you have 
a suppression side of the budget.
    And what has happened in the past is that when we have 
exceeded to suppression budget that is where we have fire 
borrowing or fire transfer. We have a fire funded fix. And so 
now what we have is that fire budget, preparedness, and 
suppression. And I think what we have to do is move away from 
suppression to the degree that we can, and move more into 
preparedness, looking at making those landscapes more resilient 
because we will never get rid of fires in California because 
our ecosystems are dependent over centuries.
    And so, what we have to do is start making our landscapes 
more resilient. And it is going to take more than just one or 
two entities to do that. I think we have to work collectively 
across all agencies, state and local, to start looking at 
making landscapes resilient. But even doing that, you know, 
after, let us just say the landscape is resilient, we still 
have to go in and do maintenance on that landscape to keep it 
resilient.
    And so, to give you an example without going too far, we 
said that we need to treat about 500,000 acres just of mass 
forestland to make a difference in how fires are taking place 
here. So, if we treat those 500,000 acres there needs to be a 
part of that to do maintenance on those acres as you treat it 
so that it doesn't get back to that condition. And we have 
estimated that we have a fire--what we call fire interval 
return.
    A fire comes back to a landscape every 15 years. And so, we 
know that once you get past 15 years, you are running a risk of 
fires taking place on that landscape again. We have started 
doing that here in California where we have had the eighty 
different entities meeting up at McCullen a couple of weeks ago 
to look at a map and those severe fire areas and then 
prioritizing all funding to work in those landscapes and try to 
produce the opportunities there.
    Mr. Rouda. So, let me see if I can summarize it. Are you 
basically saying that a greater investment in preparedness 
arguably could reduce the amount of money that needs to be 
focused on suppression and post-event mitigation?
    Mr. Moore. I firmly believe that, sir.
    Mr. Rouda. Okay. Thank you. Director Ghilarducci?
    Mr. Ghilarducci. Well first let me just say we are blessed 
in California to be able to have great partners like Randy and 
Bob in working with us to try to find the solutions and being 
as flexible as possible, and it does play out. The more you 
invest in the front end is the least amount you are going to 
have to invest in the recovery afterward.
    And so, pre-disaster mitigation is absolutely critical. It 
is the place to focus as we move forward, but that said, let me 
just kind of point out five key areas that I think that would 
help to meet your question. One is to increase the speed of 
approvals for the mitigation projects. We work with local 
governments to identify projects but by the time it gets 
through, it can take a very long time to get through an 
extensive approval process, and so in some areas, again, Bob is 
fantastic in trying to streamline that, but there are limiting 
factors with regards to bureaucracy.
    The second would be to broaden the eligibility for the use 
of mitigation funds to broaden the way you use those funds for 
more projects to be able to address what Randy talked about. 
The third is increased funding in the pre-event space. This is 
all the front-end----
    Mr. Rouda. Preparedness?
    Mr. Ghilarducci. Preparedness. This is really critical. The 
fourth is limit or eliminate that cost-share. It is probably 
the biggest mitigation killer.
    Mr. Rouda. Local municipalities inability to meet the 
threshold----
    Mr. Ghilarducci. In particularly those smaller 
disadvantaged communities that get hit the worst or impacted 
the most following a disaster cannot meet that match, and so 
they never get to where they need to get to. And then last is, 
from your standpoint, leverage the insurance industry to 
participate greater in the mitigation project effort.
    The insurance industry can bring more than they do to the 
table and we want them to be part of that dialog instead of 
being on the sidelines and watching what is going on and only 
getting engaged after the disaster. They need to be part of 
that.
    For example, a mitigation project in retrofitting homes in 
the Wildland Urban Interface that would, in essence, result in 
a percentage reduction in premiums, if the homeowner were to 
retrofit.
    Mr. Rouda. And coupled with that, perhaps, Federal and 
state tax incentives for homeowners, communities in that 
direction as well.
    Mr. Ghilarducci. Exactly.
    Mr. Rouda. Good. Thank you. Mr. Johnson, briefly, please. I 
will be quick, but these guys took the wind out of my sail 
here. I do want to make sure that we address the partnership as 
absolute. In California, we are challenged in many different 
ways than the rest of the Nation, and without these 
partnerships, we could not provide the service that we do. Just 
real quick.
    There are three projects and an immediate that are working 
very well between the Forest Service and CAL FIRE, our Forest 
Management Task Force, which look at some of these very issues 
you are discussing and how we can get there faster to get 
projects done. California is very challenged with CEQA and NEPA 
and other Governmental concerns so us working together on that 
helps expedite that. Shared stewardship across our lands as 
Chief Moore identified earlier, and our good neighbor 
authority. These actually have allowed us to cooperate together 
and get more projects done.
    Mr. Rouda. Okay. Thank you. We have just a few more minutes 
for some followup questions. I will start with Congresswoman 
Hill. The chair recognizes you.
    Ms. Hill. Thank you. I will try to keep this as quick as 
possible. And you all have addressed this to a certain extent 
but released in August 2018, the state's fourth climate change 
assessment to inform state policies to promote effective and 
integrated action to safeguard California from climate change.
    In California, it is clear that serious scientific 
consideration of the impacts of climate change is essential to 
meeting the needs of state and local decisionmakers. So, this 
is to both Mr. Ghilarducci and Mr. Johnson. You have said that 
climate change has a significant effect on the prevalent size 
and destructive capability of wildfires in California.
    Can you just in a sentence or two say how California has 
incorporated the risks associated with climate change in its 
approach to addressing wildfires really in the coming years. I 
mean, I know we are talking about limited resources from the 
Federal Government. But as far as long-term planning, what is 
does that look like specifically?
    Mr. Ghilarducci. Well, I have to say first the support of 
additional resources and staffing. Our partnerships for the 
force going forward for fuels treatments to mitigate some of 
those interface areas, and certainly the funding to state 
provided us to partner with local entities as well as private 
sectors to get these fuels reductions accomplished.
    Ms. Hill. And is that focus on the prevention side of 
things?
    Mr. Johnson. Yes, and as I would say, investing into 
preparedness education to the public, making sure they 
understand that any effort moving forward helps to bite down 
that threat and helps to protect their lives and property. And 
so that has been a big focus in all of our efforts all the way 
down to the local planning commissioners that as they approve 
new subdivisions, they are putting mitigation on the front end 
of that checklist versus on the back end of the checklist. That 
is really important.
    Ms. Hill. Okay. So you have emphasized the importance of 
the partnership over and over again, and I am really glad to 
hear that between state and Federal authorities, and I am so 
proud of the work that our Federal officials here are doing, 
but I am concerned about a few of the things that have happened 
from the Federal side earlier this year, particularly from the 
Administration. There was a showdown between California and 
Trump earlier this year about withholding aid until California 
does better, but fires actually start very frequently on 
Federal land that we are supposed to be responsible for 
maintaining. In fact, the Federal Government owns or is in 
charge of 57 percent of forest land, if that is correct. Can 
you confirm that number in California?
    Mr. Moore. Forestland in general, 20 percent of the total 
land base, but when you look at the Federal Government's Forest 
Service, BLM, then it is 57 percent of the forestlands in 
California.
    Ms. Hill. Great. So, what are your thoughts on this, and 
what do we need to do to ensure that the Federal accountability 
is in place, that it is not just passed off? And, you know, I 
guess you are kind of beholden to what happens at the Federal 
level. But to you, what do you think we need to do?
    Mr. Ghilarducci. Well, let me start off by saying that much 
has been reported in the news media about the Federal 
Administration and the California Administration, and 
particularly in the space of preparedness. To be clear, we have 
not seen that challenge come to fruition. Our Federal partners 
come to the table.
    We have not been limited in our disaster recovery funds. 
The president has declared each of the disasters we have 
requested. Our fire management assistance grants are approved 
now in record time, and they have been very, very beneficial. 
And even the challenge we had, you know, it was really more of 
an interpretation with the fire management assistance 
agreement.
    We worked through to a positive resolution and we will 
continue to work on that. We work together to look at maybe 
some legislative fixes with regards to wording to ensure that 
it is streamlined into the future. But some of that is a little 
blown out with regards to----
    Ms. Hill. So, it is a lot of talk?
    Mr. Ghilarducci. So far. But you know, I mean the truth of 
the matter is that we do know that the Federal Government is 
looking at reducing the cost of disasters and there is a lot of 
different ways that they could be doing that. And so, you know, 
right now so far it has been okay for us.
    Ms. Hill. Great. And some say, including our President, 
that raking the leaves more often would completely prevent 
wildfires. Can you tell me why that has not been employed?
    Mr. Ghilarducci. Well, we do have a strike team of rakers, 
but go ahead.
    Mr. Johnson. Well, I think he has probably visited other 
countries that have had some forestation, really hard work and 
seen clean forest floors, but in some respects, that is true, 
we need to clean up our forest. That is part of our fuel 
projects that we are working on. But again, I support Director 
Ghilarducci's comments that we have seen the help coming and we 
have not seen anything turned down right now. So, I think going 
forward really there is a lot of emphasis on the last five 
years of our fire activity so the educational piece is huge, 
and we can get that message across national.
    Ms. Hill. So, I have a quick question from a constituent, 
and I want to thank Senator Patel for bringing this to my 
attention, but there is a species called Arundo that you might 
be aware of. It is an invasive species along the Santa Clara 
River, and it is destructive in a number of different ways, 
including contributing to masses of dry vegetation along the 
river.
    So, the question is whether some of the money dedicated by 
CAL FIRE could be used to remove this species, or at least to 
the extent of creating fire breaks if that is on your radar at 
all?
    Mr. Johnson. It is, but it is more of a local entity. Most 
of the state lands outside of those local washes and rivers 
that have--I believe you are talking about the cane. It looks 
like bamboo, very similar. Some of those grants are opening up 
now and we may be able to reach some of those issues but are 
currently our interface is more of a concern than the river 
bottoms.
    Ms. Hill. Thank you all so much.
    Mr. Rouda. Thank you. The chair now recognizes 
Congresswoman Brownley.
    Ms. Brownley. Thank you. Mr. Chair. Mr. Ghilarducci, I 
wanted to ask you, you gave your five recommendations, which I 
thought were very good. Is there any legislation regarding any 
of these in Congress at the moment?
    Mr. Ghilarducci. I think there is one that is sort of 
tangential to this that has to do with when we provide grants, 
for example, for retrofits down to the local individual, if 
that individual were to be getting that grant to retrofit their 
home, they are taxed on that grant and we are asking, in the 
state of California, we waive that tax.
    It is an incentive or disincentive for the homeowner to get 
engaged if they can give taxed on a grant that is a few 
thousand dollars. And so, I think there is a resolution is 
moving forward to streamline that. Outside of that, I do not 
know of top my head if there is any specific----
    Ms. Brownley. At the state level?
    Mr. Ghilarducci. At the state level, there are a number of 
mitigation bills that are currently working their way through 
the legislature, have to do with retrofit of homes, and 
utilizing a hazard mitigation funds for not just retrofits, but 
for also other kinds of fire mitigation efforts, as well as 
some bills that are focusing on local planning commissions and 
local planning communities and being able to build more 
resilient communities to ensure that those general plans 
reflect the mitigation efforts that are required.
    Ms. Brownley. Thank you. And the other thing I just wanted 
to hit on briefly is debris removal. And I know for the Thomas 
Fire we were very lucky because CalRecycle did our debris 
removal and it happened very quickly. I think probably at 
record speed. Where the Napa fires up North that had, you know, 
they were still in recovery because the Army Corps of Engineers 
was doing their debris removal. So, has FEMA or is the Federal 
Government looking at all toward the Army Corps?
    I do not know whether it was just there are so many fires 
there and there is just a limited amount of resources is the 
cause, or whether the Army Corps needs to improve upon their 
approach to debris removal.
    Mr. Fenton. Yes. So, in the 2017 fires that you mentioned, 
the state and CalRecycle had taken on a number of fires already 
and were stretched thin. So, the state requested us to use the 
Army Corps of Engineers to remove the debris.
    And in retrospect, I think what we learned from that event 
is a lot of the contract tools the Army Corps uses and their 
bid out regionally for the United States are geared toward what 
we would see after hurricane type of debris. And so, we have 
been working with the Corps to rebid the West Coast to make the 
contract more toward what we see after fires and earthquakes, 
which would be different than what we see as far as the 
vegetative debris, you know, after hurricanes. And in the 
meantime, I think as we went into 2018, the state took on the 
debris mission with CalRecycle. They had the capacity to do 
that.
    I think we all learned from 2017 and they were able to use 
those lessons learned and are doing a great job both North and 
South and will finish ahead of schedule up North with regard to 
the debris removal. We partner together, you know, as far as 
the monitoring, the management, all those kinds of things to 
make sure we can maximize the reimbursement of anything the 
state does.
    Ms. Brownley. Thank you and I yield back.
    Mr. Rouda. Thank you. And before we go to our next panel, 
two items. One, just want to let the four of you know that we 
may, as the members here, at the dais have followup questions. 
We will submit those to you in writing and we hope that you 
would answer them in a timely manner. And second, I would ask 
that the staff of the Oversight committee and the four members 
here who are sitting behind me, in front of me, and some in the 
audience, please stand up for a minute. Please stand up. Come 
on. Do not be shy.
    Mr. Rouda. Well, I just wanted the staff to stand up. I see 
staff over here, please stand up. And the reason I am asking 
him to stand up is that as you can see the staff that we have 
here in our districts and on the hill tend to be very young and 
these are incredibly impressive young people. They are 
brilliant. They work as hard as anybody you will ever see. They 
work for peanuts and they are true patriots and I will tell you 
our country is in good hands going forward. With that, thank 
you for the first panel.
    I really appreciate your time and we will seat the second 
panel and get started again.
    Great, we will get started and now welcome our final 
witnesses and thank you for your patience. We have Max Moritz, 
Cooperative Extension Wildfire Specialist, Bren School of 
Environmental Science and Management. Doctor Afif El-Hasan, 
Pediatrician, Kaiser Permanente, California. Brent Berkompas, 
Director of Government Affairs, Orange County Professional 
Firefighters Association. And Mr. Smith. I do not have your 
official title so could you quickly provide it for me?
    Mr. Smith. Yes. Battalion Chief, Los Angeles County, Fire 
Department, and Department Fire Behavior Analyst.
    Mr. Rouda. Great. Thank you. Well, thank you all four of 
you for being here. If you could please stand all four of you. 
Do you swear or affirm that the testimony you are about to give 
is the truth, the whole truth, and nothing but the truth?
    [Witnesses sworn.]
    Mr. Rouda. Let the record show that the witnesses answered 
in the affirmative. Thank you. Please be seated. The 
microphones are sensitive so please try and speak directly into 
them. Without objection, your written statement will be made a 
part of the record. With that, Mr. Moritz, you now are 
recognized to give an oral presentation of your testimony for 
five minutes.

    STATEMENT OF MAX MORITZ, COOPERATIVE EXTENSION WILDFIRE 
SPECIALIST, BREN SCHOOL OF ENVIRONMENTAL SCIENCE AND MANAGEMENT

    Mr. Moritz. I have a presentation here. This will be a 
little different, but it is part of my job. I am deeply 
appreciative of the opportunity to be here, and I have studied 
wildfires for 25 years. So, as a scientist and science 
communicator, this is all I do, my whole life. And the last few 
years have been as tragic as they have been. They have been 
even more heartbreaking for a lot of us studying wildfire 
actually because we have a lot of knowledge that is not making 
its way into policy discussions.
    So, for that reason, I really do honor and appreciate the 
invitation and the ability to be here. That is where I am. I am 
at UC Santa Barbara. If anyone wants to talk about policy 
improvements and changes, I am more than eager to contribute. 
At the outset, maybe I would start off with just a key take-
home message and that is that we have more than one wildfire 
problem. And actually, the fact that is that it is a complex 
problem and it is often talked about as this kind of monolithic 
thing, the wildfire problem.
    We actually do not make progress toward solutions because 
we think of it as this monolithic thing, and until we are more 
careful about which wildfire problem we are talking about, 
trying to fix, actually you are not going to make a lot of 
progress. We are going to continue to have debates and not make 
a lot of the changes that we need to make. So, as an example 
that I was going to tell a little story, a little narrative 
that I run into my whole career. You will hear it in the media.
    You will hear it with the general public, politicians, and 
it sort of exemplifies this issue or this problem. One is that 
we have got trends of increasing fire activity in the past 
several decades. We have got projections for future fire 
activity. They are going to be increasing. These came out of my 
lab several years ago. But there is general agreement that 
there have been more, larger fires due to climate change, as 
you guys mentioned.
    Some other factors too. That was linked to often more 
severe forest fires, right. Larger, higher fire intensities, 
and those, in turn, are often linked to increasing home losses, 
and in our worst-case scenarios, those home losses are turning 
into kind of quasi-urban conflagrations, right. The Wildland 
Urban Interface, the WUI. We have heard that term. It has 
actually entered into common parlance now. But this linkage of 
more fire activity, more forest fires, more home losses, more 
disasters, I think if you really look at this as a causal chain 
of impacts, cause and effect chain of events, you learn 
something from this. It actually helps us tease apart this 
problem and start to make a little more progress.
    So, for example, on the home loss side, we see this over 
and over in the research environment, we will go out and look 
at post-burn environments, we will look at events. You notice 
that the vegetation often around the homes is not burning, and 
you go in after the fires, even Paradise, a lot of those 
neighborhoods that burned the vegetation is often still intact. 
The homes themselves are gone, right, and that is really an 
interesting indicator of what is causing the homeless part of 
this problem. And it turns out that most homes actually burn 
due to embers, bits of flying burning vegetation. They may come 
from far away. They may come from the adjacent home that is 
burning, but they are driven by high winds against and into 
homes, and a lot of homes burned from the inside out.
    Second, most of these home losses, really high numbers, 
they are not in forests, right. The Wildland Urban Interface is 
not your traditional forested environment. And for a lot of the 
calls and debates that we hear over the news, forest thinning, 
and we are not doing enough for this to that, is actually not 
that connected to the homeless problem. The homeless problem is 
one of where and how we have built. And that actually, those do 
get conflated and that keeps us from actually making some 
meaningful progress on some of these issues. So which problem 
are we trying to solve? There is a forest loss problem, right, 
and it has got climate change and fire suppression all feeding 
into this.
    That is one set of problem. That is largely a land 
management problem out there in the wildlands. The homeless 
problem really is not land management and a forest fire 
problem, but it is one of where and how we built. So, this gets 
us, if we focus the lens, this turns this more into a public 
health and safety issue and an urban planning issue. And I 
think if you disentangle those, we can start to look at 
solutions that actually help. I do not even remember what these 
lights mean, but so I am probably going to have to circle back 
because I think you are going to cut me off----
    [Laughter.]
    Mr. Moritz. But here are some ideas. Locally, our Forest 
Service lands are really underfunded in the places where we 
have lots of people. Why don't we allocate some funds to our 
Forest Service lands that are proportional to the exposure of 
the WUI? There are millions of homes across the Western U.S. on 
fire-prone landscapes, right. We need regional mitigation 
programs to retrofit the people, the homes, and the landscapes, 
right.
    The traditional approach of community wildfire protection 
plans, CWPPs, we can go into this later if you want. They are 
very important, but they are not enough. Urban planning, we 
have to focus on where and how we build. And the flows of 
taxpayer funds. This is something I think is very under-
appreciated. Transportation funds, housing, and urban 
development, these all inadvertently lead to an incentive 
development on hazard-prone landscapes.
    So, I think that if we recognize it more as a public health 
and safety problem, we would have some different solutions.
    Mr. Rouda. Great. Thank you very much. Doctor El-Hasan?

   STATEMENT OF AFIF EL-HASAN, M.D., PEDIATRICIAN, CALIFORNIA

    Dr. El-Hasan. Good morning. My name is Afif El-Hasan, and 
Mr. Chairman, Representatives Torres, Hill, and Brownley, thank 
you for having me here. I am a pediatrician and have been 
practicing in Orange County, California for the last 23 years. 
I have an active interest in asthma, and I take care of many 
pediatric asthma patients. I am also a volunteer and governing 
board member for the American Lung Association in California.
    The impacts of climate change on creating or worsening 
natural disasters are unfortunately clearer than ever, as we 
already discussed. And I would like to focus my time on the 
human toll and the health tolls from the wildfires in 
California over the last few years. Wildfires cause significant 
air pollution, and the type of particles that come from 
wildfires can vary.
    Other factors that influence the content of the air 
pollution from wildfires include the type of vegetation that is 
burning, the temperature of the fire, and the other man-made 
objects that also burn during wildfires, which Mr. Chairman you 
had mentioned earlier. The smoke can contain carbon monoxide, 
carcinogens, and most importantly, particulate matter.
    The particulate matter comes in many sizes, but what is 
interesting is that the particulate matter from wood smoke is 
an especially fine type of particle. It is 0.4 to 0.7 microns 
in size. Just as a reference, a micron is a millionth of a 
meter, and the average human hair is about 50 to 100 microns 
wide. So, we are talking about some pretty small particles 
here. The small size of these particles allows them to bypass 
many of the defenses of the lungs to infiltrate into the 
alveoli. And then from there, these particles can then pass 
into the bloodstream, which allows them to affect the other 
parts of the body. The particles are linked to asthma, lung 
disease, heart attacks, strokes and arrhythmias, and they can 
cause neurological problems and cancers as well.
    This is an important point when dealing with any source of 
fine particles, whether it is the exhaust from a diesel engine 
or from a wildfire. So just to emphasize, these particles are a 
danger to the entire body, not just the lungs. The lungs, 
unfortunately, are just a gateway to the rest of the body. And 
please also note that an area that has experienced a wildfire 
will also continue to shed fine particles after the fire has 
resolved due to the presence of ash. Anyone who has walked 
through an area that has been subject to a fire will know that 
they can still smell ash for days if not weeks after the fire 
has been snuffed out.
    Going back to clean up efforts, there is a public health 
need for it as well. There is some disturbing data from the 
California wildfires in 2017 regarding the PM 2.5 particles, 
which are the particles that measure an average of 2.5 microns 
and are the most dangerous to the body. The 24-hour air quality 
standard set by the EPA for PM 2.5 is 35 micrograms per cubic 
meter of air. The Sonoma-Napa wildfire in 2017 had a 
measurement of 200 micrograms per cubic meter, and a 
measurement of 70 micrograms per cubic meter was noted in 
Oakland during that time.
    The bottom line is that the wildfires not only increase the 
amount of toxic particles in the surrounding area by multiples 
of the safe levels, but it also causes dangerous levels much 
farther away. Carbon monoxide, which can kill quickly, is 
another pollutant from the wildfires and is an especially 
serious threat to firefighters since it is impractical for them 
to wear self-contained breathing apparatus while fighting the 
wildfires.
    Local residents are also in danger of carbon monoxide 
poisoning from intense wildfire activity. Some of the 
unfortunate victims of these fires were people who died in 
their swimming pools with masks on hoping that they could 
protect themselves, but the carbon monoxide was what got to 
them. As a pediatrician in Southern California, I have 
witnessed the effects of the wildfires in my area. During these 
periods of time, I have seen dramatic increases in asthma 
attacks.
    I have also seen respiratory problems like pneumonia and 
sinus infections in children with no prior health issues. It 
has become necessary for me to start prescribing or increase 
the dosage of preventative asthma medications for my asthma 
patients during wildfires, due to the dangers of these fires to 
the asthmatic patients and to all my patients in general.
    The wildfire season is also a time when children are 
playing outside, doing sports and other activities. The 
increased pollution in the air has forced these children and 
their parents to choose between playing in polluted air and 
remaining sedentary within the house. And we are also at a time 
when there is a public health issue with too much screen time 
and too much inactivity for children.
    So, we already have poor air quality throughout California. 
This is already taking a toll on the health of our children and 
the adults as well. The wildfires have only contributed to the 
problem. Some ways to mitigate some of the harm from the 
increased air pollution from wildfires are to close the windows 
of houses, use asthma medications as needed, and drive a car 
with the windows closed. But these actions cannot completely 
protect my patients from pollution. And in addition, all of 
these actions cost money. It is expensive to close your window 
and run an air conditioner, and not everyone can afford a car 
because some people have to take the bus and wait at the bus 
stop.
    Treatment of asthma and other respiratory conditions 
involves buying sometimes expensive medication and possibly 
taking time off from work or school. Protecting your health 
after a wildfire can be a costly endeavor even if there is no 
property damage from the fire. And as I mentioned, 
unfortunately, the underserved can often have a greater and 
costlier impact to their lives and health as a result of the 
wildfires, and pollution in general, due to the lack of 
resources to shield themselves from the health impacts of the 
worsened air quality.
    So, thank you very much for your time and your partnership 
in helping the people in this state to protect their health and 
well-being during these unfortunate disasters. Thank you.
    Mr. Rouda. Thank you. Mr. Brent Berkompas, please? Five 
minutes.

STATEMENT OF BRENT BERKOMPAS, DIRECTOR OF GOVERNMENTAL AFFAIRS, 
      ORANGE COUNTY PROFESSIONAL FIREFIGHTERS ASSOCIATION

    Mr. Berkompas. Chairman Rouda, Representatives Torres, 
Hill, and Brownley, I thank you for this opportunity. This is 
truly a pleasure and I am very grateful for the opportunity to 
present here today. This is an important issue and it is an 
issue that impacts me both professionally and personally, and I 
will discuss a little bit more as to why. But I want to 
distinguish really quickly that I wear multiple hats on this 
issue, and I come at this issue from multiple perspectives.
    First and most importantly as the Director of Government 
Affairs for a local 3631. That is the Orange County 
Professional Firefighters where I represent over a thousand 
members, men, and women, whose job and professional mission it 
is to protect communities and protect the lives of the people 
that we serve and the communities that we serve. So, addressing 
this issue and the impacts that the sustained wildfire seasons 
have on these people is of the utmost importance to me and my 
membership. We are seeing the impacts on our members physical 
and mental health of the sustained wildfire season.
    The times taken away from their home, the weeks that they 
are spending on assignment on these fires is increasing in size 
and scope. To put that into perspective, I think it is 
important to understand what our mission is and to be 
empathetic to what that mission is, it is to protect homes, it 
is to protect property, it is to protect lives. As we are 
seeing these catastrophes worsen, it is having a profound 
impact on my members because our mission is being met with an 
increasing problem, and to see one person lose their life, the 
impact that has on families, to see one person lose their home, 
is profound. But to see whole communities devastated is--the 
impact on the people that serve is profound and it is bearing 
out in the way of our physical and our mental health being 
impacted. So, I am here to address that.
    Also, it should be noted that as a responder to the 2003 
wildfire seasons, I saw a real problem with the way our built 
environment was constructed. We had these homes in these 
communities that were built in a way that were--at the time the 
building science was pretty clear on how to address a wildfire. 
It was, you know, the building envelope was addressed, the 
roof, the siding, and all of those types of things. There is a 
number of different vulnerabilities our structures are still 
having, and we still lose structures.
    Mr. Moritz addressed it pretty well. We are still seeing 
homes and communities being lost, even though to the best of 
our efforts, we are addressing it in the building standards and 
on the prevention side of things. Develop a product that 
addresses the wildfire problem. So, I have sat in on the 
building standards commissions and seen how building standards 
are rolled out here in the state. I have worked with builders, 
architects, contractors, and I have also seen a number of these 
grant programs and efforts to harden our communities. I have 
seen programs that work, and I have seen programs that are 
well-intentioned but have less of an impact on our built 
environment.
    So, we can talk to that issue or we can talk to the issue 
of the people that I represent also. So just to be clear.
    Thank you.
    Mr. Rouda. Thank you. Mr. Smith, you are now recognized for 
five minutes.

 STATEMENT OF DREW SMITH, BATTALION CHIEF, LOS ANGELES COUNTY 
                        FIRE DEPARTMENT

    Mr. Smith. Yes. Thank you for having me here, Chairman 
Rouda, Ms. Brownley, Ms. Torres, and Ms. Hill, and especially 
Ms. Hill and Torres. Actually, understanding the gravity of 
wildfire and having it impact you set a different tone for your 
vision of what kind of needs to happen here locally and across 
the Nation. So, a little bit about me. I a Battalion Chief of 
the Los Angeles County Fire Department. I am responsible for 
the field leadership and command a Battalion 5, which is the 
boundaries are the 101 freeway between Hidden Hills, Calabasas, 
Agoura Hills, Westlake Village, unincorporated areas of 
Topanga, also the city of Malibu in the Santa Monica mountains 
range.
    My collateral duties also include serving as a Fire 
Behavior Analyst and Operation Section Chief for the 
organization, and in that Fire Behavior Analyst position, I 
look at the daily relative risk of wildland fires, the 
projection of wildland fire size and complexity, tactical 
challenges and opportunities for those combating those fire. I 
also look at the interpretation of whether fire behavior 
forecast, implementing fire behavior forecaster, and 
operational period, and their relationship and impacts with 
fire dynamics and person on the field.
    I also work as a Fire Behavior Analyst and Operations 
Section Chief on a National Interagency Incident Management 
Team. So, my background within the 31 years of working for the 
Department is around wildland fire management practices, 
watershed conservation, wildlife sustainability, and 
operational efficiency, but first and foremost, it is the 
public safety element of why we do what we do.
    I have many credentials and qualifications to be a subject 
matter expert in this wildland discussion forum, and I thank 
you for that. An overview of the couple of topics that I have 
are some of the fire history, fire regimes, fire dynamics, 
daily relative risks, cooperating agencies, and identifying 
management and operational objectives. So, Los Angeles County 
specifically, but it really incorporates most of California and 
every place in California has its unique quality based upon its 
ecosystem, its watershed, and civilian life that works around 
their households and how it impacts them through the 
infrastructure.
    Thousands of acres are burned annually in Los Angeles 
County and the targeted month show barren seeds and fire 
frequency and size due to environmental factors. Historically, 
Los Angeles County has potential large fires during the fall 
and fall months, which is September through December. The fire 
regimes within Los Angeles County range from seasonal inland 
desert areas beginning in May, with Foot Hill and Valley 
coastal zones into summer and fall months. Fire frequency is 
predominately by human-caused rather than mother nature.
    Human-caused fires frequency is predominantly due to 
careless acts or being naive, mechanical failure, or arson. 
Mother nature fires lightning-caused has low fire frequency but 
is usually routinely in July and August or in our monsoon times 
as we get those easily throughout Los Angeles County mountain 
areas, and sometimes through the coastal areas. A fire can 
happen year-round yet certain environmental conditions need to 
be present to support aggressive and large fire growth. 
Nature's fire regimes with the mosaic burn patterns have not 
been in existence for over a hundred years in Southern, 
California.
    Fire dynamics range low extreme and early summer months 
fires are routinely topography driven under average, outside 
air temperatures, and relative humidities, and can be combated 
with much success. But however, on high-risk days, fires become 
more extreme and there is a higher resistance to control with 
those fires. The most aggressive and intense wildland fires 
exist where heavy fuel loading is present and widespread over 
this topography. Those environmental conditions and fire 
factors created a really large fire environment that also 
impacts homes when they are in the way of the path of the fire.
    One significant factor that supports large fire growth is 
an ember cast ahead of an advancing fire front that starts new 
fires, and those ember casts can be on oncoming fuels and, or 
in communities that have their nice ornamental vegetation 
around them, or unmaintained, or unwitnessed problem areas 
within the homes that are subject to promote fire growth within 
the home. Information just, excuse me. For Los Angeles County 
we do a daily fire danger analysis using RAWS, Remote Automatic 
Weather Stations, that look at the climatology and also the 
fuel factors, and this identifies the factors that determine 
our vulnerability based on initial attack component or large 
fire growth. Fire law enforcement agencies have the ultimate 
responsibility for public safety.
    The public safety element exists year-round for any type of 
incident. A fire can or may occur and can jeopardize public 
safety, and we use an incident command system, it is very 
organized, that distributes resources, your organizational 
control, and a delegation of authority through leadership 
positions and supervisory positions to combat this. So once 
again, the primary principle of life safety and the public is 
the first responders with public safety in mind.
    A lot of fire burning on our high-risk days challenges 
resources for combating the fires and providing that reflex 
time for evacuation, shelter, and place potential, and within 
the incident command system and the unified command system 
structure, it has been utilized and exercised effectively in 
California for over 30 years. And the cooperation between 
local, state, and Federal public agencies is well refined.
    Thank you for your time.
    Mr. Rouda. Thank you. Thank you. Mr. Smith, and thank you 
to all of the witnesses for your opening comments. The chair 
now recognizes Congresswoman Torres for five minutes of 
questions.
    Ms. Torres. Thank you, Mr. Chairman. And thank you to all 
of you for the work that you do. I know it is not easy being in 
that line of work. You know, when talking about grants that are 
available to the community for outreach, I happen to live in a 
community where you cannot, obviously, none of us can't control 
which way the wind is blowing, right. My community happens to 
receive the wind from everywhere and it gets stuck there.
    So, when a Congresswoman, my colleague from Ventura, has a 
fire we are the ones that are inhaling the ash and the smoke 
and everything else in between. So what types of grants are 
available for communities that are not necessarily on a fire 
zone, are not necessarily, you know, the victims of critical 
mass fires, but are the afterthought of many of the issues and 
are the ones that are going to happen to suffer very, very long 
term impasse of a wildfire, Dr. El-Hasan?
    Dr. El-Hasan. I do not know of any significant programs 
that are available, but I do know that most electric companies 
do have reduced rates of electricity for people who need 
medical devices, and in those situations I think it would be 
very important for--if a family does not have air conditioner 
for the whole family, get one for one room. A HEPA filter 
inside the house is an excellent way to keep the inside air 
healthy, and there is medical justification for that.
    Most doctors, I think would sign off on that, especially if 
there is anyone in the house with lung issues. So, there are--
but I do not, there is no large universal grant. I just would 
like people to utilize the health insurance they have, whether 
it is just, you know, whatever it might be and also maybe your 
review of medical insurance as well to make sure that they are 
providing adequate coverage for preventive actions that can be 
taken. We have talked about preventative for the fires. There 
are a lot of preventatives, things people can do in their house 
with their own personal health.
    Ms. Torres. So, I have Sotelo tile and we recently cleaned 
our tile, and just to give you a picture of what was coming up 
[it] was ash, black ash coming out of the Sotelo tile that is 
in front, right.That is not the fire in our immediate 
community, but that is miles and miles away. If the tile looks 
that bad, then someone like me that has asthma, then we become 
prisoners of our own home, which is, you know, one of the 
reasons why we have to be aware that there are grants.
    We passed an amendment last year that would allow for a 
family to apply for a $10,000 grant to help them improve and 
get ready for an emergency. So, you know, what does that mean? 
An air conditioner that they might need, maybe, changing the 
roof tiles. It is not a lot of money, but it is enough to help 
with the things that we normally do not think about because 
they do not come with a $50,000 price tag, for example.
    Last year San Bernardino Riverside County had a--during 
fire season they engage the entire community in a community 
campaign to report any spark at any time 24/7, dial 911 when 
you see smoke, and I think that they were very, very successful 
in engaging the entire community in this awareness campaign to 
ensure that they were notified immediately as fires began, and 
again before they got out of control. So, I wonder if L.A. 
County or any other statewide--if there is a statewide 
initiative to help engage the communities as a whole?
    Mr. Smith. We have a significant public outreach for early 
activation and early warning that we engage with the 
communities and we talk to our local cities depending on what 
portion of Los Angeles County you are in and our field 
Battalion Chief through the station interactions with public 
safety awareness days, with come and meet the fire station, 
with our robust public education campaign, we do have that.
    We have that in place, and we engage with the public to 
educate on an early warning. The earliest warning that you 
could have on a wildfire that stars, the earlier warning we 
have to get resources there to combat it.
    Ms. Torres. We have the shake alert for earthquakes. Do we 
have anything like that for fires?
    Mr. Smith. I do not know that if we have a certain system--
--
    Ms. Torres. App?
    Mr. Smith. Or app, right. I know that it is communicated 
very well throughout the cities within the Los Angeles County, 
and actually throughout Southern California because of this 
wildfire threat. We have--education is in place with the 
organizations.
    Ms. Torres. Thank you so much and I yield back.
    Mr. Rouda. Thank you. The chair now recognizes 
Congresswoman Brownley.
    Ms. Brownley. Thank you, Mr. Chairman, and thank you again 
to the panelists for being here. I certainly want to thank Mr. 
Berkompas and Mr. Smith and all the men and women that work for 
you. We are indebted to you and firefighters who really put 
themselves on the line every single day to protect our 
communities. I represent most of Ventura County and experience 
the Administration and the Woolsey Fire, and was, by the way, 
evacuated.
    I live in Westlake Village, on the Ventura County side, but 
was evacuated during the Woolsey Fire. But in both fires, you 
know, it was just so impactful to see the amount of 
firefighters from all over the country that came and were 
called, and to see them at the command center and, you know, 
thousands of trucks everywhere from different parts of the 
country. I just cannot tell you how my communities are still--
we still talk about how grateful we are to the men and women 
that came to help us in a great time of need. So, we thank you 
for that very, very much, and as we have been talking today 
about the increase in fires, we do not have a fire season 
anymore.
    It just seems to be literally almost all year round. I 
guess my question to you is, are you getting the resources that 
you need? We are talking a lot about health implications, so 
are you getting the resources that you need to protect the men 
and women that you represent? And my second question is the 
impacts of being involved in a fire and the toll it takes not 
only on the human body physically, but the mental implications 
as well. Do you have the resources to address those issues?
    Mr. Berkompas. Thank you for the question. It is very 
thoughtful. I will address the impact side as it has a direct 
correlation on the men and women that I represent. We are just 
beginning to understand more profoundly the mental health and 
the mental anguish side of things, and as an industry, the fire 
service is starting to address that in a meaningful way. You 
have to understand that you are dealing with a culture, you are 
dealing with men and women who are very proud, and to raise 
their hand and say that they have an issue or there is a need 
there is not something we are accustomed to doing.
    So, changing the culture is the first part but identifying 
and getting those resources to that member in a timely manner 
is equally important. So, it becomes a matter of training our 
own people because we are typically either the families or the 
co-worker or the first folks that start to recognize those 
impacts and those changes from the midline. So, do we have 
enough resources? The answer is profoundly we do not have 
enough resources to address the mental health issues.
    We really need to address those, the impacts that these 
types of events are having on our people, and to really drill 
down into what it takes to keep our people both physically and 
mentally healthy. So, we are starting to, but we are just 
scratching the surface and as our level of understanding 
improves.
    Mr. Smith. I will talk to the resources on a fire. So, when 
a fire starts, we look at how large the fire is going to get, 
how many resources whether it be by ground or by air to combat 
that fire. And with that, we are all prepared to be up for 72 
hours straight. As we come self-sustained, that we have meals 
ready to eat on our rig, we have Gatorades, we have water. That 
is the intent for what we do when we are in an aggressive 
firefight because we need to be self-sustained for 72 hours.
    If we go within that 72 hours, we start to get a work-rest 
ratio that goes on. I am sure you went to different incident 
command posts and saw quite the setup that goes on and then you 
get into the operational periods, whether we are going to work 
24 hours straight with all of the resources, then 24 hours off, 
or we go 12 on and 12 off. Our resources and our folks work a 
lot of hours to get the job done.
    That level of engagement that you have to have to keep that 
operational tempo takes a toll on our folks. As far as getting 
resources--is that one of your questions? How do we get the 
resources?
    Ms. Brownley. Well, I am just wanting to make sure that you 
have the resources, but that you have the dollars and whatever 
the Federal Government's role is in terms of having the 
resources you need to do all of the things that you are talking 
about.
    Mr. Smith. So that can be quite complex. Some of that 
depends on how the unified command structure is set up and 
whose land it is, whether it is on state lands, Federal lands, 
local government lands. So, the allocation of resources go in 
through a request, and this is many resources that we need, and 
whether it can be filled, comes into play.
    For an example, as you know living in Southern California, 
our Santa Ana winds can be widespread. And so, the resource 
allotment - if you have a fire - is going to be very 
challenging for a fire chief to make the decision to relieve 
some of his engines from their regular duty to go help when 
they have their own high-risk day. What is good about Southern 
California...we are very robust with our amount of resources 
that we have.
    We have the largest set of resources available, but they 
get tax, especially when there are multiple fires which you 
have seen. So, on the funding, I cannot talk to the funding. 
They are there but whether or not they are available based upon 
their own relative risk or their own daily activities can be 
challenging.
    Ms. Brownley. Thank you, Mr. Smith. I know my time is up, 
but I wanted to say too is that I know that there is a bill in 
Congress about the mental health side for firefighters, and I 
am in support of that bill, I am the co-author of the bill and 
hopefully, we will see some progress and success. The suicide 
rate among firefighters is on the up and it is something that 
we really need to address.
    I sit on the Veteran Affairs committee, so I deal with the 
suicide issue amongst our veteran community, both men and 
women. I think that there can be some cooperation because I 
know that the VA has done a lot of research in post-traumatic 
stress and they do a lot in terms of addressing this issue. 
This is a front and center issue when it comes to veterans and 
the men and women who are coming back from combat.
    So somehow I think in the Federal Government we need to 
figure out ways in which we can share that knowledge and share 
those knowledge resources with firefighters, but I understand 
too that we have got to provide the resources there to have the 
mental health support that the men and women need. I know all 
of us here want to help and assist in that process, and I hope 
that we will have better success.
    Because you put your lives on the line every single day 
just as our veterans put our lives on the line every single 
day, and it is our responsibility to make sure that we take 
care of the men and women that you serve and that serve us. So, 
I again, very, very grateful for your services and I yield 
back.
    Mr. Rouda. Thank you. The chair now recognizes 
Congresswoman Hill. Four or five minutes of questioning.
    Ms. Hill. Thank you so much. I want to echo what 
Congresswoman Brownley said about the importance of what we are 
doing at the Federal Government and I am really glad to hear 
the emphasis on mental health services. It is a real passion of 
mine and the fact that we are seeing these kinds of effects is 
tragic, and I am so grateful for the work that you all do.
    Is there anything, just because of the time limit that she 
had, is there anything you want to add, especially what we in 
the Federal Government can do to support in this effort? I know 
you talked about the challenges around the command structure. 
Is there anything that we can do to help to kind of alleviate 
that or make it easier and provide additional resources to 
support the firefighters?
    Mr. Smith. The biggest thing is recognizing that we need 
more help, and how we get that help at the Federal government 
level, the state level, and the local level will greatly 
enhance the public safety element. With all that and Southern 
California - really - the all-risk is what we have. Identifying 
how we could increase our staffing - as you know - with 
personnel you...you can handle a task somewhat easier. Not that 
it is easy work but if you have more folks on hand to handle 
that task, it becomes supportive in the firefight.
    Mr. Berkompas. I would add to that, there is a grant called 
the SAFER Grant and it is renewed every couple of years at the 
Federal level. It is a critically important grant for our 
profession. It helps with the adequate and just the basic 
levels of funding at the operational level. So, the SAFER Grant 
to us is critically important, and what we seem right now we 
are in an incredibly competitive job environment.
    And so, the staffing levels at all the major agencies, 
whether it be L.A. County, Orange County, L.A. City - all of 
the majors and even the minors - we are competing for the same. 
The workforce is competitive - and keeping those staffing 
levels, and keeping that high caliber of candidate coming 
through the front door - is instrumental. So, programs that 
help mentor our young people and steer them toward a career in 
the fire service, females, you know, and folks that normally 
would not have gravitated toward the profession, we need to 
encourage that. We need apartments that are reflective of their 
communities.
    Ms. Hill. Thank you so much. Dr. El-Hasan, you mentioned 
specifically that there are also deep concerns posed to 
firefighters, health concerns posed to firefighters and first 
responders as a result of carbon monoxide. Do you have any 
specific recommendations to local, state, or Federal officials 
on how we can minimize those risks or, you know, is there 
certain gear that we need to be investing in?
    Dr. El-Hasan. It is a good question. I think from my end 
since I do pediatrics although I take care of a lot of 
firefighters' kids, always have happy to do that. I would 
actually though, in general, have to say that the protective 
gear that they wear is extremely important and I am sure that 
they would echo that, that we have to be very realistic about 
our expectation of where we send our first responders because 
we could put them in a situation where we do them every 
irreparable damage to their bodies. It would not take very 
long.
    And back to what Chairman Rouda was saying about some of 
the things that are burning out there are not just wildfires, 
especially if it is toxic. We need to make sure that everyone 
is appropriately protected because you never know what they are 
walking into. And sometimes the particulate matter is the least 
of their problems.
    Ms. Hill. Thank you. And Mr. Moritz, in your written 
testimony you state that we need to address WUI, which I think 
is a funny term for it, but by focusing on how and where we 
build our homes. Can you briefly discuss how local governments 
can use urban planning to prepare for this? And, you know, this 
is important to me because several of the cities in my district 
that touch, I guess, wildland are expecting pretty rapid growth 
in the coming years.
    Mr. Moritz. Yes, so I think urban planning is a very 
underutilized tool. I think a lot of people, a lot of 
policymakers, and even a lot of fire professionals kind of 
throw up their hands and say, well urban planning is all very 
local, right, it is all locally driven, and to a certain extent 
that is true. In California, however, we are a little bit 
unique in that CAL FIRE has a land-use planning program. So, 
every single general plan for every community has to go through 
an update and CAL FIRE's land use planning program gets to 
weigh in on that.
    So, there is a way that, you know, some top-down guidance 
actually gets integrated into land-use planning. A lot of it 
comes from OPR, the Office of Planning and Research as 
technical guidance on hazard, and that is also what a lot of 
local Fire Marshal's offices use is that guidance. And that 
guidance document is actually fairly thin. It really only talks 
about water supplies, roads in and out, and a little bit about 
defensible space. It really doesn't say much about the sighting 
of communities, the layout of the community.
    So, all that could be beefed up in our Office of Planning 
and Research Documentation. Outside of California, you know, 
California is kind of lucky because we have those regulations. 
We also have fire hazard severity zone maps, which guide 
building codes, a huge improvement over not having them there. 
It is like using flood plain maps to guide building decisions. 
Other states could benefit greatly from those kinds of 
approaches.
    Ms. Hill. Thank you. So just to wrap it up, Mr. Smith and 
Mr. Berkompas, you also talk--you spoke with committee staffers 
and in your testimony you talked about importance of land 
management and so I just wanted to kind of finalize it by 
asking if any of you believe that there is a role for the 
Federal government in assisting local and state governments 
with wildland interface, urban planning, land management, and I 
do not know what that would look like, maybe it is grants to 
further facilitate these kinds of efforts, but just any ideas 
that we can take back and consider with our colleagues?
    Mr. Berkompas. Yes, I would look at programs like Energy 
Star and as a success and how that was implemented in the 
incentives that were given to homeowners for replacing 
appliances as a model for how you might incentivize communities 
to do the type of structural hardening that building 
scientists, such as Mr. Moritz and his team and others are 
doing. So that would probably be a model that could be 
implemented from the top down at the Federal level.
    Mr. Smith. So, with land management and looking at the home 
and working out, the more energy release that you have coming 
out of a fuel bed, that happens when you do not have fire 
frequency. So, as these fuels get more large, robust because 
they have seen the wet years, they have seen the dry years, so 
this fire regime that has not been here, it gives us a tactical 
disadvantage for protecting homes.
    Based upon an urban layout, how it is or is not is what 
challenges firefighters, whether they are ground resources or 
air resources. We have a lot of air resources, but they become 
very ineffective when the energy released out of the fuel bed 
makes it very dangerous for pilots due to wind speeds and 
environmental conditions based upon the fire itself. You do not 
have the same set of tactical challenges in lighter fuel beds. 
You have a different set of tactical opportunities to engage in 
the fire to have success when you do not have the same energy 
coming out of the fuel bed.
    Mr. Moritz. If I can circle back to the earlier point you 
tried to make, that there are probably billions of dollars that 
come to the states and that end up encouraging road 
development, housing and urban development funds. I have talked 
to a lot of land-use planners who have plenty of case studies 
where they will say, yes, you know, when those new roads went 
in there, it is sort of like if you build it, they will come. 
Then the neighborhoods came and all of a sudden, we had a 
community, an incredibly risky place.
    If Federal funds, as they flow to the states, had some 
stipulation about being--they had to be prioritized to be used 
on the lowest hazardous portions of the landscape and avoid the 
riskiest, kind of like we use flood plain maps, there would be 
a way that those funds actually then cannot incentivize 
building on the dangerous parts of the landscape. But we do not 
do that now. There is a tracking to those funds and stipulation 
of how they are used according to hazard maps.
    Ms. Hill. Thank you all so much. This is really, really 
helpful, and we are just so grateful for the work that you do, 
and we are going to do everything in our power to get you the 
resources you need. I yield back.
    Mr. Rouda. Thank you. I now recognize myself. Dr. El-Hasan, 
if I understood, a question regarding your opening testimony, 
you were talking about particulate matter in the air and the 
impact it has on the lungs as the gateway to the human body. 
And if I heard you correctly, I believe you said hotter fires 
cause greater issues with particulate matter, did I hear that 
correctly?
    Dr. El-Hasan. It may not even be hotter, but the 
temperature of the fire does actually manipulate the kind of 
particulate matter that comes out. There are too many factors 
to say whether or not the actual higher temperature would 
necessarily give you a more dangerous particulate matter. It is 
just that it is depending on what is being burned plus the 
temperature itself.
    Mr. Rouda. Okay, and then somewhat related to that is the 
discussion that as we have these fires and Mr. Moritz, you 
talked about this in your opening testimony, about how we 
address the burning of homes is very different than how we 
address the forest.
    Mr. Berkompas, you talked about the envelope of the house. 
How we do a good job going forward with the walls and the roof 
but not necessarily with the inside and the volatility or 
potential exposure to fires from within. Can you elaborate on 
that a little bit more as to what is taking place inside the 
home that is making it more susceptible to fires, and maybe 
what we can do to address it? Anybody else on the panel if they 
have comments as well.
    Mr. Berkompas. You know, and I will let you fact check me 
on this, and I would defer to a lot of good building science 
that is coming out of areas like the California Insurance 
Institute for Building and Home Safety, which is a cooperative 
of the insurance industry and these folks that are doing very 
good work to kind of propel the research, the empirical as well 
as the anecdotal information, behind why homes burn.
    It is, to Mr. Moritz's point, that the burning off, and Mr. 
Smith's point too, is that the homes are often times burning 
from the inside out. So, there are vulnerabilities still in the 
building envelope. So, we are talking about the built 
environment, what we can do from a building standard 
standpoint, what we can do to address the existing housing 
stock, which is millions of homes.
    Mr. Rouda. What does that mean, burning from the inside 
out?
    Mr. Berkompas. So, it is typically embers entering into 
void spaces and vulnerable spaces that are not prepared to 
resist----
    Mr. Rouda. Down the chimney, through an open door, an open 
window? Okay.
    Mr. Berkompas. Windows, vents.
    Mr. Rouda. Okay. I think I have a better understanding of 
it now. Okay, and one thing I really want to point out is that 
Mr. Berkompas and Mr. Smith is that we recognize as first 
responders on the front lines how challenging the job is, how 
much exposure there is from a health standpoint.
    I am proud of this committees' work on other issues 
addressing our firefighters, including perfluoroalkyl and 
polyfluoroalkyl, PFAS chemicals, and the impact it has had, and 
I want you to know the four members up here stand ready to do 
whatever it is we need to do to make sure that you have the 
protection and support from the Federal government that you 
need.
    I know sometimes as we saw with Jon Stewart bringing 
excellent attention to the fact that the first responders from 
911 were not getting adequate attention. While all members of 
the House and the Senate often talk a big game, sometimes it 
takes a little bit of a push for some to move forward.
    Again, I cannot emphasize enough we are ready to stand with 
you on any issues that are important. Is there anything else 
the four of you want to close with as we end and toward the end 
of our time, and in before I give you that opportunity, let me 
just check with Congresswoman Hill to make sure she doesn't 
have any followup questions?
    Ms. Hill. I appreciate it. I have taken plenty of time, but 
I just want to reiterate my thanks for having this, and for you 
all being here, and for the work that you do. I think this 
again gives us a lot to think about to work with our partners 
at the local and state levels and figure out the next steps for 
me.
    Mr. Rouda. And I do not want to put you on the spot that 
you have to say something but for some of you that have been 
sitting there that you thought gosh, I wish somebody would ask 
me this question so I can provide this answer, please weigh in.
    Mr. Smith. I am good.
    [Laughter.]
    Mr. Rouda. I guess you are never going to make it as 
politicians.
    [Laughter.]
    Mr. Moritz. I am in academics so I guess I will talk a 
little more. A point that was made earlier, and I see it a lot 
in our work, if funds coming from the Feds were a little more 
flexible and how they could be used. Often, they come down to 
the states and they go out through the Fire Safe Councils, and 
they have very specific uses that they are allowed to put those 
funds toward.
    Similarly, funds that go to FEMA, if you do not have it 
written up in your multi-jurisdictional county hazard 
mitigation plan, funds generally cannot be used for that. So, 
home retrofits is a big one, and so is community education. 
Those are two needs that actually kind of fall by the wayside 
because there is not a specific way to fund a lot of those 
kinds of activities. So more flexible use of Federal funds I 
think would be good.
    Mr. Rouda. Excellent. Well again, I want to thank you as 
well. Yes, I am sorry.
    Dr. El-Hasan. I am sorry. I was going to make one comment. 
I would like to--our kids are the canaries in the coal mine, 
and as we see increases in asthma and other illness and other 
problems because they are the most delicate, we have to take it 
seriously because what happens to them ultimately will happen 
to everyone and there are long-term implications from that.
    So obviously my job is to protect kids, but obviously it is 
also to protect everyone, but what I see in them and what I am 
seeing in children in the pediatric population in terms of lung 
disease and other issues as well, as a cause from pollution and 
wildfires is going to spread to everyone and just cause a big 
mess.
    Mr. Rouda. Thank you, doctor. And thanks to all of you for 
being here today as well as our first panel. As I mentioned in 
the first panel, members will have five legislative days to 
submit written questions to you and we ask for your prompt 
response, and we will add that to the record.
    But again, I really appreciate you taking the time to come 
here today, share your expertise, help us understand this 
growing issue. And for those of you in the audience, thank you 
as well for coming and obviously it is an important topic and 
that is why you are here today. We will continue to fight to 
make progress on that. And with that, this committee is 
adjourned.
    [Whereupon, at 12:33 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
